    Office of Inspector General
    Audit Report




Report of Audit on the Center for
   Chesapeake Communities

       E6DEP8-03-0014-9100117



           March 31, 1999
Inspector General Division
  Conducting the Audit:      Mid-Atlantic Audit Division
                             Philadelphia, PA

Region Covered:              Region 3

Program Office Involved:     Chesapeake Bay Program Office
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF INSPECTOR GENERAL
                               MID-ATLANTIC DIVISION
                                 1650 Arch Street
                       Philadelphia, Pennsylvania 19103-2029
                                  (215) 814-5800
                                        March 31, 1999

MEMORANDUM

SUBJECT: Final Audit Report on the Center
         for Chesapeake Communities
         Report Number E6DEF8-03-0014-9100117


FROM:        Carl A. Jannetti
             Divisional Inspector General for Audit (3AI00)

TO:          W. Michael McCabe
             Regional Administrator (3RA00)


Attached is our final audit report on the Center for Chesapeake Communities
(CCC). It contains findings concerning the formation of the CCC, and issues related
to the cooperative agreement EPA awarded to this nonprofit. This report also
discusses the method used to award contracts to obtain Local Government Advisory
Committee (LGAC) support services, and the CCC’s procurement and financial
procedures.

ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to
provide this office a written response to the audit report within 90 days of the final
audit report date. For corrective actions planned but not completed by the response
date, reference to specific milestone dates will assist in deciding whether to close
this audit. Your response should address all recommendations, and include
milestone dates for corrective actions.

This audit report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This
report represents the opinion of the OIG. Final determinations on matters in this
report will be made by EPA managers in accordance with established EPA audit
resolution procedures. We have no objection to further release of this report to the
public. Should your staff have any questions, please contact me or Lisa White at
215-814-5800.

Attachment
[This page was intentionally left blank]
                      EXECUTIVE SUMMARY


Purpose            The purpose of this audit was to evaluate the activities
                   surrounding the formation of the Center for Chesapeake
                   Communities (CCC). Our objectives included a review of:
                   EPA’s award and administration of the cooperative
                   agreement to the CCC, the method used to obtain LGAC
                   support services, and the CCC’s procurement and financial
                   procedures. Our objectives also focused on determining the
                   validity of concerns raised by LGAC.

Results-in-Brief   EPA awarded a noncompetitive cooperative agreement to the
                   CCC without adequate justification. Awarding the
                   cooperative agreement noncompetitively, without adequate
                   justification, created an appearance of preferential treatment
                   that compromises the integrity of the Chesapeake Bay
                   Program.

                   Moreover, EPA awarded cooperative agreements to
                   intermediaries which in turn awarded contracts to provide
                   LGAC support services. To obtain these support services, the
                   intermediaries awarded contracts to Redman/Johnston
                   Associates. EPA officials explained that by awarding
                   cooperative agreements to obtain the services of an LGAC
                   support contractor, it was able to avoid Federal procurement
                   regulations, making the procurement for support services
                   easier. However, while easing the process for awarding the
                   support contracts, EPA did not comply with the intent of
                   Public Law 95-224 entitled the Federal Grant and
                   Cooperative Agreement Act of 1977, 31 U.S.C. 6301 et seq.

                   As a nonprofit recipient of EPA funds, the CCC’s conduct is
                   governed by 40 CFR Part 30. This regulation addresses a
                   recipient’s ethical responsibilities. Among such
                   responsibilities is the requirement to avoid a contract award
                   that would raise a real or apparent conflict of interest on the
                   part of the award official. In the case of the CCC, the
                   Executive Director acted favorably toward Redman/Johnston
                   Associates by awarding it two contracts after



                                      i                        Report No. 9100117
                    Redman/Johnston Associates absorbed costs totaling
                   approximately $2,300 for incorporating the CCC. This action
                   compromised the integrity of the CCC’s contract award
                   process and violated EPA’s regulations.

                   We also found that neither the CCC nor Redman/Johnston
                   Associates had financial management systems in place to
                   properly account for Federal funds. As a result, the abilities
                   of these organizations to record, process, summarize and
                   report financial data were adversely affected.

Recommendations We recommend that the Region III Administrator:

                   1)    Terminate the existing cooperative agreement
                         awarded to the CCC. Once terminated, if Region III
                         continues to believe the services are needed, attempts
                         should be made to award a new cooperative agreement
                         competitively. If advertisements and requests for
                         proposals do not identify entities able to perform the
                         services required, then Region III can award the
                         cooperative agreement noncompetitively. This award
                         should only be made after Region III has ensured that
                         an adequate justification has been provided.

                   2)    Obtain LGAC support services directly, without using
                         an intermediary.

                   3)    Discontinue all payments to the CCC and review all
                         costs already incurred under the cooperative
                         agreements for allowability and reasonableness. To
                         that end, labor amounts billed by Redman/Johnston
                         Associates not supported by adequate timesheets
                         should be disallowed.

                   4)    Prior to awarding assistance agreements and before
                         allowing advance payments, ensure that recipients
                         have developed and implemented adequate internal
                         controls and financial management systems that
                         comply with Office of Management and Budget (OMB)
                         and EPA regulations.




                                      ii                       Report No. 9100117
                       5)     Contact our office prior to closeout of the cooperative
                              agreement awarded to the CCC to afford us the option
                              of performing a final audit.

Region III Response

The Region concurs with virtually all the recommendations outlined in the draft
report, and in a number of instances has already taken actions which have the
effect of carrying out the recommendations in whole or in part. This includes: a site
review and evaluation of the CCC’s financial management and records systems;
development of a management plan for competing nonprofit grants in the
Chesapeake Bay Program Office; issuance of the first Request for Proposals under
the new competitive procedures outlined in the management plan; and initiation of
a vulnerability assessment for all Chesapeake Bay Program grants. Other actions
will be taken in full response to the recommendations made in the final report.

OIG Evaluation

EPA’s response meets the intent of our recommendations, however, Region III
deferred responding to the recommendation in Chapter 4. We expect that the
Region’s response to the final audit report will address all of our recommendations.




                                         iii                      Report No. 9100117
[This page was intentionally left blank]




                  iv                       Report No. 9100117
                                        TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
    INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                1
          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1
          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            2
          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     5
          Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  8

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    EPA NEEDS TO ADEQUATELY JUSTIFY NONCOMPETITIVE
          COOPERATIVE AGREEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          EPA Responsibilities Unfulfilled . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          LGAC Vice Chair Forms the CCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
          Feasibility Study Inappropriately Helps the CCC . . . . . . . . . . . . . . . . 14
          Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

CHAPTER 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     21
    IMPROPER USE OF COOPERATIVE AGREEMENTS . . . . . . . . . . . . . . . .                                                    21
          Assistance Agreement Misuse Triggers Concerns . . . . . . . . . . . . . . .                                         21
          EPA Improperly Used Assistance Agreements . . . . . . . . . . . . . . . . . .                                       22
          COG Excluded In Favor of CCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            23
          Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    24

CHAPTER 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     26
    CONFLICT OF INTEREST SHOULD HAVE PRECLUDED
          AWARD OF CONTRACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             26
          Contractor Should Have Been Disqualified . . . . . . . . . . . . . . . . . . . . .                                  26
          CCC’s Procurement Records Were Incomplete . . . . . . . . . . . . . . . . . .                                       31
          Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    33




                                                              v                                  Report No. 9100117
CHAPTER 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   38
    EPA MUST ENSURE THAT RECIPIENTS HAVE AN ADEQUATE
          FINANCIAL MANAGEMENT SYSTEM . . . . . . . . . . . . . . . . . . . . . . .                                         38
          CCC Disregarded Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      39
          CCC’s Costs Unsupported . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       40
          Contractor’s Costs Unsupported . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          41
          Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            42
          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   42

Exhibit A - Analysis of Expenditures by the CCC . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

Exhibit B - Costs Claimed by the Contractor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

Exhibit C - Excerpt from Revised Application for EPA Assistance . . . . . . . . . . . . . 50

Appendix 1 - Region III’s Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . 51

Appendix 2 - CCC’s Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . 57

Appendix 3 - Redman/Johnston Associates Response to the Draft Report . . . . . . . 67

Appendix 4 - Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76




                                                             vi                                  Report No. 9100117
                        ACRONYMS


CCC/or Center   Center for Chesapeake Communities

CBPO            Chesapeake Bay Program Office

CFR             Code of Federal Regulations

COG             Metropolitan Washington Council of Governments

EPA             Environmental Protection Agency

LGAC            Local Government Advisory Committee

NWI             National Wilderness Institute

OIG             Office of Inspector General

OMB             Office of Management and Budget

RFP             Request for Proposal

RFQ             Request for Qualifications

SRO             Senior Resource Official




                              vii                     Report No. 9100117
[This page was intentionally left blank]




                 viii                      Report No. 9100117
                                        CHAPTER 1

                                      INTRODUCTION


Purpose                    The purpose of this audit was to evaluate the activities
                           surrounding the formation of the Center for Chesapeake
                           Communities (CCC). Our objectives included a review of:
                           EPA’s award and administration of the cooperative
                           agreement to the CCC, the method used to obtain LGAC
                           support services, and the CCC’s procurement and financial
                           procedures. On December 15, 1997, the Office of Inspector
                           General (OIG) received a letter from the Chair of the
                           Chesapeake Bay Local Government Advisory Committee
                           (LGAC). This letter requested that the OIG evaluate issues
                           raised by LGAC members regarding the CCC1. Our
                           objectives also focused on determining the validity of LGAC’s
                           concerns regarding:

                           —      The relationship between the CCC and the LGAC.
                                  Specifically, several members of the LGAC also served
                                  on the Board of the CCC leading to perceptions of
                                  conflict of interest.

                           —      The possible conflict of interest by the Executive
                                  Director of the CCC because he was a member of the
                                  LGAC and Chair of the LGAC’s nonprofit study
                                  workgroup.

                           —      The process by which the LGAC nonprofit workgroup
                                  performed its feasibility study.

                           —      The actions of Redman/Johnston Associates (the
                                  contractor used to provide staff support to the LGAC)
                                  to pay the filing fees and other costs associated with
                                  the incorporation of the CCC.

1. On May 12, 1998, the OIG also received a request from the Landmark Legal Foundation, on
behalf of itself and the National Wilderness Institute (NWI) formally requesting our review into the
incorporation of the CCC. The NWI also placed a report on the Internet discussing some of the
issues addressed in this report.



                                                 1                           Report No. 9100117
Background   The Chesapeake Bay Program is the unique regional
             partnership which has been directing and conducting the
             restoration of the Chesapeake Bay since the signing of the
             1983 Chesapeake Bay Agreement. The Chesapeake Bay
             Program partners include the States of Maryland,
             Pennsylvania, and Virginia; the District of Columbia; the
             Chesapeake Bay Commission; EPA; and participating
             advisory groups.

             The EPA Region III Chesapeake Bay Program Office (CBPO)
             in Annapolis, MD coordinates the cleanup initiatives of the
             Chesapeake Bay. It provides administrative and technical
             support to the network of regional committees,
             subcommittees and workgroups that participate in the
             Chesapeake Bay Program under the overall direction of the
             Chesapeake Executive Council.




             The Chesapeake Executive Council membership includes the
             EPA Administrator; the Governors of Virginia, Maryland
             and Pennsylvania; the Mayor of the District of Columbia;
             and the Chair of the Chesapeake Bay Commission. The
             Council establishes policy direction for the restoration and
             protection of the Chesapeake Bay and its living resources.



                                2                      Report No. 9100117
The Principals’ Staff Committee acts as the policy advisors to
the Executive Council, accepting items for Council
consideration and approval. Membership includes the EPA
Region III Administrator, EPA’s Director of the Chesapeake
Bay Program, the Executive Director of the Chesapeake Bay
Commission, and various state Department Secretaries and
Directors. The Implementation Committee is responsible for
the annual workplan, budget, technical and computer
support, and public outreach.

Establishing the LGAC in March 1988 fulfilled a
commitment in the Chesapeake Bay Agreement. LGAC is
composed of local government representatives from the
States of Maryland, Virginia and Pennsylvania, as well as
the District of Columbia. Each of the states may appoint up
to six members to serve on LGAC. The District of Columbia
may appoint three. All members serve without
compensation. This committee is charged with developing
and implementing a strategy for local government
participation in the Chesapeake Bay Program. The
committee gives advice on matters relating to local
governments to the Chesapeake Executive Council, the
Principals’ Staff Committee and the Implementation
Committee. To accomplish this task, LGAC holds quarterly
meetings to discuss current Chesapeake Bay Program policy.
In addition to its policy role, the LGAC provides information
and technical assistance to local governments throughout the
Chesapeake Bay watershed.

In recognition of the vital role local governments play in the
Chesapeake Bay restoration effort, the Chesapeake
Executive Council adopted the Local Government
Partnership Initiative in 1995. This Initiative was a
commitment to strengthen the Chesapeake Bay Program’s
partnership with local governments. To ensure that the
objectives of the Initiative were achieved, LGAC formed a
task force to develop a Local Government Participation
Action Plan. The goal of this Action Plan was to establish a
strategy to broaden the participation of local governments in
the Chesapeake Bay Program.




                   3                       Report No. 9100117
The Local Government Participation Action Plan was
endorsed by the chief executives of the Chesapeake Bay
Program in October 1996, and contained a commitment to
improve and establish technical and financial assistance
programs to local governments. These programs were
intended to enhance local governments’ capacity to
implement Chesapeake Bay restoration and protection
measures. One of the many tasks under this commitment
was to investigate the feasibility of establishing a nonprofit
entity to further assist local governments in implementing
Chesapeake Bay protection and restoration activities. As a
result, the LGAC formed a workgroup to examine the
feasibility of establishing a nonprofit entity. Prior to the
completion of this study, the Center for Chesapeake
Communities (CCC), a nonprofit organization, was
incorporated on August 5, 1997. The LGAC Vice Chair
became the Executive Director of the nonprofit.

As a result of the workgroup’s efforts, a draft feasibility
report was prepared in September 1997. This report
concluded that:

       Although government groups provide services to
       local governments, and nonprofit organizations
       work with local government constituents, there
       is currently not a nonprofit organization that
       serves as a regional resource organization in the
       watershed with a local government focus.

Soon after the CCC was incorporated, EPA awarded it a
noncompetitive cooperative agreement on September 30,
1997. This agreement was amended twice. The first
amendment was for a time extension. The second
amendment, dated March 2, 1998, increased funding and
extended the project and budget periods. Details of the
cooperative agreement and amendments follow.

   Assistance        EPA            Project
    Number          Amount          Period        Budget Period

  CB993675-01-0      $45,000    9/8/97-12/31/97   9/8/97-12/31/97

  CB993675-01-1         -0-      9/8/97-3/31/98    9/8/97-3/31/98

  CB993675-01-2     $314,370    9/8/97-12/31/03    9/8/97-3/15/99


                    4                         Report No. 9100117
              The purpose of the initial cooperative agreement was to
              support start-up of the CCC, prepare a local government
              training module, and plan a local government summit. The
              second amendment included funding for the CCC to:

              ’     Conduct activities that will enhance its ability to
                    provide technical assistance, as well as seek financial
                    assistance opportunities for local governments
                    interested in Chesapeake Bay restoration and
                    protection activities.

              ’     Complete various projects including enhancing efforts
                    to implement the tributary nutrient reduction
                    strategies, broadening the engagement of local
                    governments, and supporting toxic reduction pollution
                    prevention goals.

              ’     Provide staff support for the LGAC.

              Almost one-half of the cooperative agreement funds provided
              to the CCC were used for a contract award to obtain LGAC
              support. LGAC support includes items such as: coordination
              and scheduling of meetings, interaction with local
              governments through press releases, managing the
              Chesapeake Bay Program Local Government homepage,
              planning and holding media events, and providing technical
              support to local governments. For the past five years,
              Redman/Johnston Associates has been awarded this
              contract.


Scope and     Our audit was performed in accordance with the Government
Methodology   Auditing Standards (1994 Revision) issued by the
              Comptroller General of the United States, except that we did
              not follow all of the elements of the planning standards in
              Chapter 6. Since this review was initiated as a result of a
              letter sent from the Chair of the LGAC, our work focused on
              determining the validity of the issues raised in his letter.
              The audit included tests of the program records and other
              auditing procedures we considered necessary.

              To accomplish our objectives, we performed our review at
              EPA Region III's Chesapeake Bay Program Office in

                                5                         Report No. 9100117
Philadelphia. We also conducted work at the CCC’s and
Redman/Johnston’s offices. We interviewed the Executive
Director of the CCC, the President of Redman/Johnston
Associates, and some of the LGAC members.

Our review in Region III included interviews and meetings
with the Project Officer, the Grants Specialist and the
Deputy Director of the Chesapeake Bay Program Office. We
reviewed the program and grant files for the cooperative
agreement awarded to the CCC. We also reviewed the grant
file for the cooperative agreement awarded to the
Metropolitan Washington Council of Governments (COG)
because it previously awarded contracts to Redman/Johnston
Associates to provide support to the LGAC.

Our review at the CCC included files pertaining to
cooperative agreement number CB993675-01 awarded by
EPA. We did not include the Small Watershed Grant and
the Sustainable Development Challenge Grant in the scope
of our review. At the time of our fieldwork, these assistance
agreements had not been awarded. We reviewed the
procedures the CCC used to award the contracts to
Redman/Johnston Associates, and any internal controls
affecting our review that the CCC had in place at the time of
our audit. We performed a detailed review of the CCC’s
check register, canceled checks, invoices, receipts, and bank
statements.

During our visit to Redman/Johnston Associates office, we
reviewed invoices submitted to both the COG and the CCC
along with canceled checks, a transaction report from
January 1997 through April 1998, documentation supporting
the incorporation of the CCC, the proposal to the CCC for the
contract award and various documents pertaining to LGAC
support work.

We reviewed Title 40 of the Code of Federal Regulations Part
30, Grants and Agreements with Institutions of Higher
Education, Hospitals and Other Nonprofit Organizations.
We also reviewed Public Law 95-224, the Federal Grant and
Cooperative Agreement Act of 1977, U.S.C. 6301 et seq., EPA
Order 5700.1 titled Policy for Distinguishing Between


                   6                       Report No. 9100117
Assistance and Acquisition, OMB Circulars A-110 and A-122,
the Grants Management Fact Sheet for Agency Leaders,
titled, Competition for Assistance Agreements, and Executive
Order 12674, Principles of Ethical Conduct for Government
Officers and Employees.

We did not review EPA’s oversight procedures for the
administration of the cooperative agreement awarded to the
COG. Moreover, we did not review the COG’s costs or
conduct a site visit at the COG. However, we did request
various documents from the COG and interviewed some of its
personnel.

We reviewed the CBPO’s annual assurance letter for fiscal
year 1998 prepared as a result of the Federal Managers’
Financial Integrity Act. There were no weaknesses
identified that pertained to the scope of work we reviewed.
However, the letter indicates that this review was requested
and that the findings would be used to strengthen the
CBPO’s management controls.

Our review began on January 9, 1998 and ended on
September 18, 1998. To obtain a preliminary response to the
issues in this report, we issued position papers to the
Director of the Chesapeake Bay Program Office on
November 5, 1998. We received verbal comments from him
on November 10, 1998, and written comments from the
Deputy Director on November 12, 1998.

We issued a draft report on November 20, 1998 to the Region
III Administrator. In order to obtain comments from the
CCC, we provided them Chapter 4, the applicable portion of
Chapter 5, and Exhibits A and C. We also provided
Redman/Johnston Associates Exhibit B and the portion of
Chapter 5 applicable to the contractor in order to obtain their
comments. Subsequently, the CCC Executive Director asked
if he could provide Redman/Johnston Associates Chapter 4 so
that they both could respond. We granted that request. The
CCC provided comments on January 21, 1999, and
Redman/Johnston Associates provided comments on
December 24, 1998 and January 4, 1999. Several meetings
were conducted with Region III officials to discuss the issues


                   7                       Report No. 9100117
              in the report. EPA Region III provided their written
              response on March 10, 1999. After evaluating these
              responses, our position remains unchanged on the issues
              discussed in this report.

              Exit conferences were held on March 17, 1999 with the CCC
              Executive Director, on March 24, 1999 with the Director of
              the CBPO and on March 26, 1999 with the Deputy Director
              of the CBPO. We also conducted an exit conference with the
              contractor on March 26, 1999. During that exit conference
              the contractor qualified his responses to the audit report
              because he was not given the opportunity to comment on
              Chapters 2 and 3. In our opinion, the contractor had the
              opportunity to comment on all of the major points in the
              report. All of the responses are summarized at the end of
              each chapter and provided in their entirety as Appendices.


Prior Audit   There has been no prior audit coverage of the nonprofit
Coverage      organization that is discussed in this report.




                                 8                      Report No. 9100117
                               CHAPTER 2

      EPA NEEDS TO ADEQUATELY JUSTIFY NONCOMPETITIVE
                  COOPERATIVE AGREEMENT


                   EPA officials are responsible for ensuring that there is
                   adequate justification for assistance agreements awarded
                   noncompetitively. Competition is essential to ensure that
                   the government obtains the most qualified organizations at
                   the best price. EPA received no such assurances when it
                   awarded a noncompetitive cooperative agreement to the
                   CCC. Moreover, awarding the cooperative agreement
                   noncompetitively, without adequate justification, created an
                   appearance of preferential treatment that compromises the
                   integrity of the Chesapeake Bay Program.

EPA                On May 31, 1994, the EPA Deputy Assistant Administrator
Responsibilities   for Administration and Resources Management sent a
Unfulfilled        memorandum to all Senior Resource Officials (SROs)
                   addressing SRO responsibilities. One responsibility he
                   specified was to ensure that there is “adequate justification
                   for assistance agreements awarded noncompetitively” when
                   reviewing assistance funding packages. According to a
                   Grants Management Fact Sheet for Agency Leaders, titled,
                   Competition for Assistance Agreements, dated December
                   1995, Agency managers must develop a solid justification if
                   they do not use competition.

                   Awarding a noncompetitive cooperative agreement without
                   adequate justification seriously challenges the concept of free
                   and open competition embraced by the Agency. Listed below
                   are some of the effects of awarding a cooperative agreement
                   noncompetitively without adequate justification:

                   ’     Gives the appearance EPA may be giving preferential
                         treatment to any single assistance applicant.

                   ’     Reduces EPA’s opportunity to receive a wide range of
                         innovative and creative ideas to support its mission by
                         limiting the range of potentially eligible recipients.

                                      9                        Report No. 9100117
                  ’     May fund organizational start-up costs at the expense
                        of performing direct project activities.

                  ’     Is inconsistent with the intent of the Federal Grant
                        and Cooperative Agreement Act of 1977 which
                        encourages competition, where appropriate, in the
                        award of grants and cooperative agreements.

                  Even a Region III Chesapeake Bay Program document
                  recognized the need for competition. According to a
                  questions and answers document prepared by Region III
                  officials to supplement LGAC’s feasibility report,

                        It would be inappropriate for the Bay Program
                        or any of its subcommittees to directly launch or
                        approve a specific nonprofit organization.

                  By awarding the CCC a noncompetitive cooperative
                  agreement without adequate justification, Region III officials
                  also did not comply with the intent of Executive Order
                  12674, Principles of Ethical Conduct for Government
                  Officers and Employees. Section 101(h) of the Executive
                  Order states that Government employees shall act
                  impartially and not give preferential treatment to any
                  private organization or individual.

                  Although in retrospect they now agree that the cooperative
                  agreement awarded to the CCC should have been
                  competitively awarded, Region III officials contend that the
                  level of detail contained in the justification for this
                  assistance agreement was common for Region III assistance
                  agreements, and not unique to this award. They also
                  contend that our conclusion that this award portrays
                  preferential treatment to a single grantee is not appropriate.
                  We disagree with Region III. We believe the events
                  paralleling the award of this cooperative agreement support
                  our conclusion about the appearance of preferential
                  treatment in Region III’s handling of this matter. These
                  same events also indicate that a competitive award was
                  needed.

LGAC Vice Chair   The LGAC headed by a Chair and several Vice Chairs,
Forms the CCC     commissioned a task force to prepare the Local Government

                                    10                       Report No. 9100117
Participation Action Plan. (One of these LGAC Vice Chairs
became the task force Chair). The Action Plan that this task
force prepared called for broadening local government
participation in the Chesapeake Bay Program, and
committed to study the feasibility of establishing a nonprofit
to assist local governments. LGAC then established a
workgroup to perform this feasibility study.

The feasibility study workgroup members included
representatives from EPA’s Chesapeake Bay Program Office,
the COG, and various representatives from other
organizations involved with Chesapeake Bay protection
efforts. (The Chair of this workgroup was the same person
who chaired the task force and later became Executive
Director of the CCC.) The workgroup also included the
President of Redman/Johnston Associates, acting in his role
as Executive Director to the LGAC. According to EPA
personnel, this workgroup met often to evaluate the
feasibility of establishing a nonprofit.

In effect, one LGAC member was the Chair of the task force
that prepared the Action Plan committing to study the
feasibility of establishing a nonprofit. This same person was
also the Chair of the workgroup that performed this
feasibility study. Finally, this same person became the
Executive Director of the CCC.

Before the feasibility study
was finalized, the CCC was        CCC incorporated before
incorporated and awarded a         feasibility study was
cooperative agreement by                  finalized
EPA to do the work
contemplated by the
feasibility study. The CCC’s Executive Director and the
President of Redman/Johnston Associates involvement in the
feasibility study, coupled with EPA’s decision to award the
cooperative agreement to the CCC, caused some LGAC
members to request this audit. The following chart provides
a timeline that shows the CCC being incorporated before the
feasibility study was finalized.




                  11                       Report No. 9100117
   Executive Council adopts the 1995 Local Government
      Partnership Initiative which is a commitment to
  strengthen the Chesapeake Bay Program’s partnership
                  with local governments


        Informal discussions begin concerning the                        August 1996
              establishment of a nonprofit


     Executive Council adopts the Local Government
   Participation Action Plan that committed to broaden                   October 1996
        participation by local governments in CBP

   Redman/Johnston Associates discusses incorporating
           a new nonprofit with an attorney                                  January
                                                                                1997
   LGAC establishes workgroup to study the feasibility
                     of a nonprofit                                    February 1997

    Redman/Johnston Associates incorporates CCC and
    LGAC Vice Chair becomes CCC Executive Director                       August 1997

EPA sends letter to CCC confirming funding and prepares                    September
Program Decision Memorandum justifying award to CCC

            Draft feasibility study published that
  indicates nonprofit does not exist with local government            September 1997
focus. Contained draft bylaws, articles, and a budget for an
                    entity named the CCC

     LGAC publishes progress report to Chesapeake
                   Executive Council                                     October 1997
   LGAC considering workgroup findings but not ready
         to make recommendation on nonprofit


                      Before LGAC began the feasibility study to determine if a
                      nonprofit was the method of choice for increasing local
                      government participation, a new nonprofit was being
                      planned. Soon after the CCC was incorporated in August
                      1997, EPA sent the CCC a letter confirming the award of the
                      cooperative agreement and issued the Agency’s Program
                      Decision justifying the noncompetitive award to the CCC.
                      This justification stated that:

                              Establishing this new nonprofit center is one of
                              the commitments of the Chesapeake Bay

                                            12                    Report No. 9100117
       Program Local Government Participation Action Plan.
      No other organization would have been suitable for
      the task.

As previously noted, EPA made this determination before the
LGAC finalized its feasibility study indicating there was not
currently a nonprofit that provided this service. The fact
that the Chair of the workgroup and Redman/Johnston
Associates, as participants in that workgroup, had a personal
financial interest in the conclusion that no nonprofit existed,
raises concern about the workgroup’s objectivity and the
validity of its conclusion.

EPA personnel told us that the workgroup contacted other
organizations, and could not identify an existing
organization that fulfilled the mission contemplated by the
feasibility study. Region III personnel believed it was
important to note that the draft feasibility report indicated
that:

      Staff contacted local government associations
      and representatives to inform them of the study
      and seek their input to the needs analysis ...
      Representatives of existing regional non-profits
      served on the workgroup ... and were consulted
      on the merits of a new organization.

Although the workgroup studied the need for a nonprofit to
assist local governments to participate in the Chesapeake
Bay Program, neither EPA personnel nor the LGAC’s
feasibility report documented that the possibility was
explored that an existing nonprofit would be able to provide
this service. Moreover, because an existing nonprofit did not
have a local government focus does not mean such a focus
could not have been developed.

In the process of making the award to the CCC, there was no
evidence that EPA solicited proposals from the nonprofit
community for the type of work contemplated. Without
efforts to seek out other nonprofits willing or capable of
performing the services EPA wanted, Region III did not
fulfill its responsibility to obtain competition. The principal
problem we found with EPA’s justification for awarding the
CCC a cooperative agreement noncompetitively was that
                     13                        Report No. 9100117
                    Region III did not independently confirm that no other
                    nonprofits were able to perform the work desired.

                    Using an existing organization could have avoided the costs
                    of creating a new organization and capitalized on the
                    existing organization’s experience. Apparently, duplication
                    of effort was a concern of some LGAC members. This is
                    evidenced by a letter dated September 9, 1997 from the
                    Director of the Virginia Department of Conservation and
                    Recreation to the Chair of the LGAC which stated:

                          Unfortunately, Virginia was not consulted
                          during the feasibility study and, as it turns out,
                          much of what is planned for the Center is
                          duplicative of the work being done by the
                          Chesapeake Bay Local Assistance Department.

                    When we discussed this letter with Region III officials, they
                    disagreed with the Director’s comments. They asserted that
                    Virginia was represented on the workgroup, and if the
                    Virginia officials had concerns, these concerns were not
                    relayed to the workgroup when the feasibility study was
                    being drafted. Conversely, the Virginia representative
                    contended he was unaware that the CCC was being
                    incorporated at this time.

Feasibility Study   When asked what was
Inappropriately     the basis for awarding           Feasibility study did not
Helps the CCC       a noncompetitive             justify noncompetitive award
                    cooperative agreement,
                    the Region III Project
                    Officer replied the
                    feasibility study was the basis for the award. Ultimately,
                    this study indicated:

                          There is currently not a nonprofit organization
                          that serves as a regional resource organization
                          in the watershed with a local government focus.

                    In our opinion, the feasibility study does not provide a basis
                    for not competing this cooperative agreement because the
                    workgroup never formally considered the option of using an
                    already existing nonprofit. Rather, the study focused on
                    incorporating a new nonprofit.
                                       14                        Report No. 9100117
The feasibility study resulted in the creation of a mission
statement and business plan for the CCC, as well as bylaws,
articles of incorporation, and a budget. These items should
not have been prepared as part of the feasibility study
because the establishment of a nonprofit was not within the
scope of work of the feasibility study. The generation of
these documents, however, certainly enhanced the CCC’s
incorporation process. The Statement of Purpose section of
the feasibility study indicated the study was intended to:

’     Ensure that the mission of a new nonprofit did not
      duplicate the activities of existing organizations;

’     Create opportunities for local governments to
      participate in the investigation process; and

’     Assess the availability of resources needed to establish
      and maintain a nonprofit organization.

While EPA Region III was awarding the CCC a cooperative
agreement noncompetitively, the LGAC was still not
convinced about using a new nonprofit. The progress report
to the Chesapeake Executive Council, dated October 30,
1997, summarized the actions taken by LGAC to implement
the Local Government Participation Action Plan. This
report, issued after Region III had awarded the cooperative
agreement to the CCC, did not mention the CCC. To the
contrary, the report discussed the nonprofit workgroup
results. The workgroup concluded that:

      A nonprofit organization ... will contribute to
      the overall effort to protect and restore the
      Bay.... The LGAC is currently considering the
      workgroup’s findings and is not ready to make a
      recommendation at this time.

Despite this report, Region III officials had already awarded
a cooperative agreement to the CCC in order to fund the
start-up of the nonprofit.

EPA officials indicated that it was important to note that
during the LGAC’s November 1997 meeting, it ultimately
endorsed the feasibility report and the working relationship

                  15                       Report No. 9100117
             with the CCC. However, we noted that the minutes of this
             meeting showed that the LGAC endorsed the CCC after a tie
             vote was broken by the LGAC Chair, who was a board
             member of the CCC. At this same meeting, a second motion
             was passed which called for the OIG to perform this audit.

             The LGAC members who requested this audit contend there
             were several reasons why Region III awarded this grant to
             the CCC. Chief among them was the relationship between
             Region III officials, the CCC’s Executive Director, and the
             President of Redman/Johnston Associates. It has also been
             asserted that this current arrangement provides Region III
             more control of Chesapeake Bay Program funds destined for
             local governments. However, we could not confirm the
             validity of the reasons.

Conclusion   The advance incorporation of the CCC gives the appearance
             of preferential treatment because of:

             —      the Executive Director of the CCC and
                    Redman/Johnston Associates integral participation in
                    the feasibility study;

             —      EPA’s award to the CCC before the final publication of
                    the study;

             —      EPA’s reliance on the study’s conclusion, before the
                    final publication of such conclusion, to justify a grant
                    award to the CCC; and

             —      the study’s subsequent conclusion which provided a
                    financial benefit to the CCC’s incorporators.

             Region III's actions did not fulfill its responsibility for
             ensuring that there was adequate justification for the
             noncompetitive award to the CCC. Instead Region III's
             actions compromised local initiative, promoted a
             noncompetitive award, and gave the appearance of
             preferential treatment.




                                16                        Report No. 9100117
Recommendations We recommend that the Region III Administrator:

                       2-1   Terminate the existing cooperative agreement
                             awarded to the CCC.

                       2-2   Attempt to award a new cooperative agreement
                             competitively if Region III continues to believe the
                             services are needed. If advertisements and requests
                             for proposals do not identify entities able to perform
                             the services required, then Region III can award the
                             cooperative agreement noncompetitively. This award
                             should only be made after Region III has ensured
                             adequate justification has been provided.

Region III Response

In retrospect, given the clarification of policies which will result from the draft
report, as well as controversy within the LGAC over the formation of the Center, it
would have been better to have competed this grant. This would have eliminated
any appearance of preferential treatment even where there was none, as in this
case. The Bay Program is currently engaged in a process to do just that for a
successor grant. At the same time, it is important to note that the Bay Program
was following normal and customary practice, and that Agency policy provides a
considerable degree of discretion to the Program Manager to make determinations
of the need for formal competition. The Chesapeake Bay Program employs
considerable competition in the selection of priority projects and tasks through an
open Budget Steering Committee process involving dozens of organizations, and it
was assumed that this provided ample competition to meet the intent of Agency
policy. Given the concerns identified in the draft report, the Region will evaluate
its procedures for competition and implement changes as may be necessary.

The Region further agrees that as the new nonprofit was formed, the Center and
the contractor should have acted in ways which would have eliminated any
appearance of a conflict and the complaints that resulted. Simple preventative
measures should have been taken much earlier in the process: the LGAC Vice Chair
should have stepped down from the Workgroup Chairmanship when he first started
considering launching a nonprofit; he should have informed the LGAC of the
Center’s creation in a timely manner and recused himself on all matters affecting
the nonprofit decision; and a clearer separation should have been made between the
work of the contractor and the Center’s issuance of a Request For Qualifications
used to employ the new LGAC support staff. We recognize the inherent difficulty of
anyone conducting business with the LGAC without interacting with their official

                                         17                       Report No. 9100117
support staff, Redman/Johnston and Associates. However, greater efforts should
have been employed to ensure separation of the roles and avoid any appearance of
conflict in contracting. The Region took strong action in September 1997, prior to
the award of the first Center grant, to seek written assurances from the CCC
Director about avoiding even the appearance of a conflict of interest in future
actions.

The Region agrees with Recommendation 2-1 that the existing cooperative
agreement should be brought to an end and be replaced by a new grant
arrangement as determined by the outcome of a competitive Request for Proposals
(RFP). The Region also commented that it is critical to maintain LGAC and other
project support, and a precipitous action to replace it could lead to the same issues
of non-competition raised by the Inspector General. We will transition to the
successful candidate(s) under the new RFP on or around August 1, 1999.

Region III concurs with Recommendation 2-2. The Region has taken steps to
compete the local government assistance functions consistent with an overall
Chesapeake Bay Program management plan. By taking such action, the Region
does not indicate concurrence that the initial justification for non-competition was
inadequate. In fact, the file justification for this award far exceeded in level and
detail what is typical for other similar grants. No extraordinary efforts were taken
by the Region to streamline the award of this grant so as to deny others the
opportunity to compete.

A broad-based Workgroup was employed to develop the Feasibility Report which
was essentially completed on schedule in June 1997, prior to the CCC’s
incorporation. This consensus report of the Workgroup, involving 12 participants in
total and 5 existing nonprofit entities, made a clear recommendation that “there is
currently not a non-profit organization that serves as a regional resource
organization in the watershed with a local government focus.” Significant efforts
were also made by the Workgroup staff to contact existing service providers in the
Region to see if the work could be done through existing means. Staff reported
directly to the Workgroup, which included EPA, that they could not identify a
willing nonprofit entity. Documentation of this search and of the Workgroup’s
serious concern for impacts on existing service providers is provided in the
Feasibility Report.

Other serious inaccuracies in the draft report relate to compliance with law and
Agency policies. The draft report makes declarative statements that the Region did
not comply with Agency Fact Sheets and the Federal Grant and Cooperative
Agreement Act with respect to competition for grants. While we acknowledge above
that, in retrospect, competing this grant could have averted any appearance of


                                          18                       Report No. 9100117
conflict, we do not concur with these statements and wish to point out the full
context of these documents.

Agency policy, as articulated in the Grants Management Fact Sheet for Agency
Leaders entitled Competition for Assistance Agreements, Number 9, states that
“the Agency encourages fair and open competition in the award of discretionary
assistance agreements.” (Emphasis added.) This does not constitute a requirement
to do so in the case of every grant awarded. In fact, the Fact Sheet clearly states
that “Program Leaders should determine up-front if a competitive process is
appropriate for your assistance program.” (Emphasis added.) Further, the
Federal Grant and Cooperative Agreement Act of 1977 “encourages competition,
where appropriate, in the award of grants and cooperative agreements.”
(Emphasis added.)

Citing Executive Order 12674, Principles of Ethical Conduct, the report asserts that
Region III did not act impartially and without preferential treatment to an
organization or individual. At the time of grant award, the Region was not aware of
any other eligible and interested prospective grantee, after months of extensive
consultations and research conducted by the Feasibility Workgroup and by Region
III independently. The COG had not expressed interest in continuing this grant at
that point. Therefore, EPA could not have acted in preference to one organization
at the exclusion of a known, alternative option. There are no assertions of personal
friendship or association in the report. Further, no one in EPA directly benefitted
from any of these actions. Therefore, this assertion that Region III officials did not
comply with the Principles of Ethical Conduct is incorrect and should be deleted in
its entirety.

OIG Evaluation

Region III’s agreement to terminate the existing cooperative agreement with the
CCC, and to award future cooperative agreements competitively meets the intent of
our recommendations.

The Region stated it conducted a thorough assessment to determine that a “new”
nonprofit was needed. However, without asking the existing nonprofit community
if it had any interest in providing this service, the Region did not provide them the
opportunity to develop an interest in serving the Chesapeake Bay Program. This
opportunity was given to the CCC. Moreover, there was no documentation for the
“assessment” the Region stated it performed. These two factors, coupled with the
CCC Executive Director’s actions to incorporate the CCC before the feasibility study
was finalized, are the basis for the findings in this chapter.



                                          19                       Report No. 9100117
We recognize that EPA is not mandated to award all cooperative agreements
competitively. However, there must be an adequate justification for all
noncompetitive awards. Awarding assistance agreements noncompetitively without
a valid reason or justification would open the Agency to allegations of preferential
treatment. We disagree that the Budget Steering Committee process fulfilled the
need to compete a specific cooperative agreement. It merely defined which projects
will get funding.

We disagree with Region III’s comments regarding the Executive Order. Region III
allowed events to occur that benefitted the contractor and the CCC. The
formulation of the CCC’s bylaws, mission statement, and articles of incorporation
gave preferential treatment. Also, Region III was aware the CCC was being formed
by the people performing the feasibility study, which again gives the appearance of
preferential treatment. This awareness was evidenced by the written assurance
Region III obtained from the CCC Executive Director about avoiding even the
appearance of a conflict of interest, except that Region III’s actions did not go far
enough. The Region did not exercise its responsibility to ensure that the CCC
Executive Director complied with the written assurance he gave to Region III.




                                          20                      Report No. 9100117
                                CHAPTER 3

           IMPROPER USE OF COOPERATIVE AGREEMENTS


                     EPA should not have awarded cooperative agreements to
                     intermediaries who awarded contracts to obtain LGAC
                     support services. EPA officials explained that by awarding
                     cooperative agreements to obtain the services of an LGAC
                     support contractor, it was able to avoid Federal procurement
                     regulations, making the procurement for support services
                     easier. According to these same officials, they were
                     attempting to get LGAC support work accomplished in a
                     more efficient manner, since they believed they had the
                     option to award either a contract or assistance agreement.
                     However, Region III's actions did not comply with the intent
                     of the Federal Grant and Cooperative Agreement Act of 1977
                     and fostered a perception of preferential treatment.

Assistance        While easing the process for awarding the support contracts,
Agreement Misuse EPA did not comply with the intent of the Federal Grant and
Triggers Concerns Cooperative Agreement Act of 1977. This Act was passed
                  because Congress was concerned that Federal agencies were
                  misusing assistance agreements to circumvent competition
                  and other procurement rules. Moreover, EPA Order 5700.1
                  prohibits using cooperative agreements to circumvent
                  procurement regulations.

                     EPA Order 5700.1 is designed to inform program, assistance,
                     and procurement award officials of circumstances that
                     require the use of contracts rather than assistance
                     agreements. The Order provides that EPA may not award
                     an assistance agreement to an eligible intermediary [such as
                     a nonprofit entity] to provide assistance to an ineligible
                     recipient [such as a profit making entity].

                     Legislative History of the Competition in Contracting Act of
                     1984, while not governing assistance agreements, explains
                     Congress’ desire for competition in Federal awards. Senate
                     Report Number 98-50, at 3-4 (1984), states that:



                                       21                       Report No. 9100117
                        . . . possibly the most important benefit of
                        competition is its inherent appeal of ‘fair play.’
                        Competition maintains the integrity in the
                        expenditure of public funds by ensuring that
                        government contracts are awarded on the basis
                        of merit rather than favoritism. . . . The
                        Attorney General has interpreted congressional
                        intent as preventing favoritism. . . .

EPA Improperly    For a number of years the COG used an employee to provide
Used Assistance   LGAC support. After this person resigned, the COG began
Agreements        using contracts to obtain LGAC support. For more than four
                  years EPA awarded noncompetitive cooperative agreements
                  to the COG, which in turn awarded contracts to provide
                  LGAC support services. To obtain these support services, the
                  COG awarded contracts to Redman/Johnston Associates. For
                  example, during fiscal 1996, EPA awarded a $201,000
                  cooperative agreement to the COG. Using these cooperative
                  agreement dollars, the COG then awarded a $192,000 time-
                  and-materials contract for LGAC support. The remaining
                  $9,000 was kept by COG as compensation for administering
                  the contract. Similarly, in fiscal 1997, EPA awarded the
                  COG $214,000 which resulted in a $204,000 time-and-
                  materials contract to Redman/Johnston Associates. The
                  remaining $10,000 was used for contract administration and
                  miscellaneous expenses such as LGAC meeting lunches,
                  newsletters and photocopying.

                  According to COG                      COG was “middle man
                  personnel, the LGAC                       without a role”
                  workplan for the contract to
                  Redman/Johnston
                  Associates was a product of EPA and the contractor. The
                  COG was merely the procurement intermediary EPA used to
                  award the support contract. COG personnel explained that
                  they were simply a “middle man without a role.” In our
                  opinion, there is no legitimate basis for an agency to make an
                  assistance or contract award to an entity that has no role
                  performing the work called for under such award. The
                  award to COG was essentially an award directly to
                  Redman/Johnston Associates which, as a profit making
                  entity, is not eligible to receive this assistance agreement
                  under the Clean Water Act.

                                    22                        Report No. 9100117
COG Excluded In   After the CCC was incorporated, EPA decided that the COG
Favor of CCC      would no longer be used as the vehicle to award LGAC
                  support contracts. Instead, EPA used the CCC, which
                  awarded a contract to the same contractor that received it in
                  the past. The cooperative agreement awarded to the CCC
                  provided $314,000, of which $155,000 was used for the
                  current contract. By providing the contract funds for LGAC
                  support to the CCC, EPA continued the practice of
                  improperly using an intermediary to award a contract.

                  When we asked why the COG was no longer receiving the
                  cooperative agreement to award the contract, EPA
                  representatives told us that the COG was no longer
                  interested in continuing this service. We determined that
                  the COG initially said it no longer wanted to provide LGAC
                  support; however, the COG informed the nonprofit
                  workgroup in September 1997 of its potential desire to
                  continue providing this support. Subsequently, we also
                  discovered that the COG informed EPA in a letter dated
                  October 22, 1997 of its continued interest in providing staff
                  support to LGAC.

                  In response to the COG’s letter, the EPA Region III
                  Administrator wrote to the COG Chair explaining that
                  Region III understood that COG was no longer interested in
                  providing LGAC support. EPA indicated that based on this
                  understanding and a variety of other factors, EPA had been
                  actively pursuing other options. In our opinion, Region III's
                  action to exclude the COG strengthens the perception of
                  Region III’s preferential treatment toward the CCC.

                  By awarding a contract, as opposed to a cooperative
                  agreement for LGAC support services, Region III could have
                  relied on the expertise of its procurement officials, who are
                  not closely involved with the Chesapeake Bay Program or
                  Redman/Johnston Associates. Such reliance would have
                  enhanced the integrity of the Chesapeake Bay Program
                  Office and not subjected that office to charges of preferential
                  treatment.




                                     23                       Report No. 9100117
Recommendation         3-1    We recommend that the Region III Administrator
                              obtain LGAC support services directly, without using
                              an intermediary.

Region III Response

The Region has agreed to a future limit on the amount of contracting under
cooperative agreements for this and similar Chesapeake Bay Program efforts. We
have done this by specifying evaluation criteria under the RFP which promote work
being done in-house by prospective grantees.

EPA has an obligation under the Clean Water Act to ensure adequate support to
the operations of the Chesapeake Bay Program, which is comprised of over a dozen
major committees and three advisory committees. The active grant in 1997 was
scheduled to come to a close in early March 1998 and the COG had indicated for
years its desire to terminate its role. The Region was therefore required to
expeditiously identify an alternative, prospective grantee. Time urgency weighed
heavily since the grant for LGAC services was expiring. Because of the impending
expiration of the grant and the time required to process a new grant, the
Chesapeake Bay Program could not wait an indefinite amount of time for final
LGAC approval due to the need to support the Advisory Committee. LGAC’s
meeting schedule and a pattern of intentional delays were not conducive to
providing input to this decision in a timely manner.

There are a number of other places in the draft report which are not clear, and
where the material presented or analyzed could lead the reader to a misleading or
incorrect conclusion. For example, extensive parts of the report are based on the
erroneous assumption that the Region’s motivation was to use the nonprofit grant
recipient as a means to fund a profit-making contractor in violation of procurement
regulations. In fact, the contracting out of some services to a profit-making
organization by the nonprofit grantee is a practice that had a history predating the
current grantee and is permissible under EPA rules. The selection of the contractor
was within the full authority and discretion of both previous and current grantees.

Under these circumstances, it is misleading to include in the Introduction and
Chapter 3 of the draft report allegations that the Region was trying to avoid
procurement regulations. This is simply not the case. The Region sought out no
contractors, instructed no grantee to contract, was not the direct beneficiary of the
grant, and avoided no procurement regulations. This section of the Report and the
relevant parts of the Introduction should therefore be deleted or corrected.



                                          24                       Report No. 9100117
OIG Evaluation

Region III’s proposed action meets the intent of our recommendation. However, we
do not agree that portions of this finding should be deleted or corrected. We do not
dispute that grantees are permitted to use subagreements to accomplish work.
Moreover, the draft report does not contend that the LGAC support work is for the
direct benefit of EPA or another Federal agency. Our finding demonstrates that
Region III should procure the LGAC support services directly (not using an
intermediary) either through a contract or an assistance agreement.

Awarding an assistance agreement to a nonprofit organization that results in 95%
of the funds going to a contractor, with the remainder used for contract
administration, indicates that obtaining these services directly (using either an
assistance agreement or a contract) was the method that should have been used
initially. Moreover, by using an assistance agreement, EPA avoided awarding the
contract itself and allowed the CCC to award the contract under less than ideal
conditions.

We have noted EPA’s perceived need to act expeditiously in the award to the CCC.
However, we do not agree that acting so quickly was necessary. Instead, EPA
should have considered extending its agreement with COG.




                                         25                       Report No. 9100117
                                 CHAPTER 4

         CONFLICT OF INTEREST SHOULD HAVE PRECLUDED
                      AWARD OF CONTRACT


                      As a nonprofit recipient of EPA funds, the CCC’s conduct is
                      governed by 40 CFR Part 30. This regulation addresses a
                      recipient’s ethical responsibilities. Among such
                      responsibilities is the requirement to avoid a contract award
                      that would raise a real or apparent conflict of interest on the
                      part of the award official. In the case of the CCC, the
                      Executive Director acted favorably toward Redman/Johnston
                      Associates by awarding it two contracts after
                      Redman/Johnston Associates absorbed costs totaling
                      approximately $2,300 for incorporating the CCC. This action
                      compromised the integrity of the CCC’s contract award
                      process and violated EPA regulations.

Contractor Should Title 40 CFR 30.42 states that
Have Been         no recipient official shall              Contractor and CCC
Disqualified      participate in a contract award             interaction was
                  if a real or apparent conflict of              improper
                  interest would be involved. This
                  regulation further establishes
                  that the recipients shall neither solicit nor accept gratuities,
                  favors, or anything of value from contractors, or parties to
                  subagreements.

                      Title 40 CFR 30.43 requires all procurement transactions to
                      be conducted in a manner that provide, to the maximum
                      extent practical, open and free competition. The regulations
                      require the recipient to be alert to organizational conflicts of
                      interest as well as noncompetitive practices among
                      contractors that may restrict or eliminate competition. It
                      also requires that in order to eliminate an unfair competitive
                      advantage, contractors that develop or draft specifications,
                      requirements, statements of work, invitations for bids, and/or
                      requests for proposals shall be excluded from competing for
                      such procurements.



                                         26                       Report No. 9100117
Title 40 CFR 30.44 requires a clear and accurate description
of the technical requirements for the services to be procured.
Moreover, this written description should contain technical
requirements in terms of functions to be performed,
including the minimum acceptable standards.

Title 40 CFR 30.46 requires a recipient to have procurement
records that include, at a minimum, the basis for contractor
selection; justification for lack of competition when
competitive bids or offers are not obtained; and the basis for
award cost or price.

Title 40 CFR 30.45 requires that some form of cost or price
analysis shall be made and documented in the procurement
files in connection with every procurement action.

Redman/Johnston Associates
participated in the preparation of      Verbal agreement
the assistance applications                prohibited
submitted by the CCC and had
advance knowledge about the
cooperative agreement and intended contracts. Despite this,
Redman/Johnston Associates subsequently entered into a
sole source verbal agreement with the grantee to receive
$10,000 from the cooperative agreement awarded to the
CCC.

EPA Region III awarded the CCC a $45,000 cooperative
agreement on September 30, 1997. According to this
agreement, the money was to be used to support start-up
functions for the CCC; conceptualize and begin to prepare a
local government training module and clearinghouse; and
plan a local government summit.

Initially, the CCC’s application for assistance, dated July 30,
1997, indicated that it would award a $10,000 contract for
preparation and filing of the articles of incorporation,
attorney fees, accountant fees, and staff support to create the
nonprofit organization. Ultimately, the CCC revised its
application for this assistance agreement, and indicated that
the $10,000 would be used for a contract to obtain “technical
assistance and organization start-up support to initiate the
activities of the Center [CCC].” Our review found that the

                   27                       Report No. 9100117
contractor signed the Executive Director’s name with his own
initials (ADR) next to the Executive Director’s name on the
revised application for Federal Assistance that was
submitted to EPA (See Exhibit C). Because of this signatory
arrangement, it is not clear to us what role the Executive
Director may have played in the submission of this revised
application. However, the contractor stated in his response
that the CCC Executive Director authorized this signature.

Although he subsequently resigned, it is important to note
that at the time the CCC was incorporated, the President of
Redman/Johnston Associates was listed as a member of the
Board of Directors in the CCC’s articles of incorporation.
Moreover, the CCC’s application for the cooperative
agreement listed the President of Redman/Johnston
Associates as the project manager. The assistance
application also contained this same contractor’s name and
telephone number as the point of contact for EPA questions.

Contrary to what was in the CCC’s application, both the
Executive Director of the CCC and the President of
Redman/Johnston Associates told us the $10,000 was for
additional work needed to complete the feasibility study.
The invoice submitted by the contractor to the CCC
confirmed that the contractor billed for work on the
feasibility study. These costs are unallowable because this
work was not authorized under the cooperative agreement
awarded to the CCC.

Subsequently, we asked for a copy of the contract and the
applicable scope of work. Both the Executive Director of the
CCC and the President of Redman/Johnston Associates told
us they entered into a verbal agreement for $10,000 with the
approval of EPA. However, they had no supporting
documents to validate this verbal agreement or EPA’s
approval.

Our review of the CCC’s financial records revealed that as of
May 6, 1998, the contractor was paid only $3,300 for his
services. The CCC’s Executive Director told us the contractor
had not been paid the full $10,000 billed because the CCC
was experiencing cash flow problems. He explained that the
payments would be made later. In any event, the verbal

                  28                       Report No. 9100117
                           agreement for $10,000 should not have been made between
                          the CCC and the contractor because 40 CFR Part 30
                          prohibits this type of agreement.

                          On March 31, 1998, the CCC
                          awarded another contract for the        Contract awarded
                          LGAC support services to                with  only pretense
                          Redman/Johnston Associates. It            of competition
                          appears from the steps that
                          preceded this award that
                          Redman/Johnston Associates had an inside track to the
                          award of the contract and should have been excluded. In our
                          opinion, documents in Region III's and the CCC’s files
                          indicated that the CCC’s award to Redman/Johnston
                          Associates was accomplished with only the pretense of
                          competition.

                          This second contract was funded by an amendment to the
                          cooperative agreement awarded to the CCC. The
                          amendment, dated March 2, 1998 was to increase the
                          funding by $314,000 and extend the project and budget
                          periods. Of this amount, $155,000 was to fund the contract
                          award to Redman/Johnston Associates. To award the second
                          contract, the CCC used a Request for Qualifications (RFQ)
                          method for selecting the contractor. The RFQ specified that
                          if the CCC continued to receive financial assistance from
                          EPA, the CCC reserved the right to extend the contract
                          through four subsequent years.

                          According to the CCC’s Executive Director, the RFQ for the
                          LGAC support contract was sent to eighteen companies on
                          February 6, 1998. We obtained the names of the eighteen
                          companies and began contacting them by telephone on
                          March 31, 1998, the day the contract was awarded. Our
                          review was able to confirm that only six of the eighteen
                          received the RFQ. Two companies did not return our
                          telephone calls. Of the remaining ten companies, four could
                          not be located2 and six indicated they never received it.

2. There were no telephone, Internet, or Dunn & Bradstreet listings available for any of these four
firms. This search was performed shortly after the RFQ was mailed.




                                                29                           Report No. 9100117
                           Of the six companies that received the RFQ, only
                           Redman/Johnston Associates submitted a proposal and was
                           awarded the contract on March 31, 1998. The five companies
                           that did not respond told us they did not bid because:

                           P       two were not qualified;
                           P       one believed the incumbent would be awarded the
                                   contract and, therefore, decided not to submit a
                                   proposal3;
                           P       one bid on a prior contract and never received a
                                   response; and
                           P       one did not give a reason for not responding.

                           When we initially requested the list of companies that were
                           mailed the RFQ, this document was faxed from
                           Redman/Johnston Associates to the EPA Project Officer, and
                           ultimately was sent to us. Although the Executive Director
                           of CCC and Region III officials said that the contract was
                           awarded competitively, the only entity that could provide a
                           list of the RFQ recipients was Redman/Johnston Associates.
                           This document should have been generated by the CCC in
                           the course of a competitive procurement; it should have been
                           in the CCC’s files; and it should not have been released to
                           Redman/Johnston Associates, which should have been
                           completely separated from the CCC’s contract award process.

3. This company later sent a solicitation letter to the CCC for the preparation of an educational
outreach program.
                                                 30                           Report No. 9100117
               Other documents also showed the contract was awarded with
               only the pretense of competition.

               •     EPA files contained the Region III Project Officer’s
                     notes that indicated “competitive procurement—Tony
                     prefers RFQ.” Tony Redman is a partner of
                     Redman/Johnston Associates, the company that
                     received the support contract, and the RFQ was the
                     method used to award the contract.

               •     The CCC’s 1998 Application for Federal Assistance
                     included the CCC’s projected income and budgets. It
                     also included the estimated amounts budgeted for the
                     LGAC support contract. This budget is titled Draft #2
                     revised and includes handwritten changes on various
                     line items. It was faxed from Redman/Johnston
                     Associates to the CCC on September 11, 1997. This
                     was six months before the contract was awarded on
                     March 31, 1998. Redman/Johnston Associates access
                     to such information should have disqualified it from
                     the contract award.

               •     The Application for Federal Assistance, dated
                     December 16, 1997, signed by the Executive Director
                     of CCC was faxed to the Region III Grants
                     Management Branch from Redman/Johnston
                     Associates on February 25, 1998. These funds were
                     awarded by EPA to the CCC on March 2, 1998, and
                     included the funds for the LGAC support award.

               Redman/Johnston Associates’ integral involvement in the
               procurement process should have eliminated its eligibility to
               compete for this contract. Such involvement gave
               Redman/Johnston Associates a significant competitive
               advantage that 40 CFR Part 30 is designed to prohibit. Such
               involvement also casts doubt on the legitimacy of the RFQ
               process which resulted in Redman/Johnston Associates being
               the sole bidder.

CCC’s          Title 40 CFR 30.45 requires some form of cost or price
Procurement    analysis shall be made and documented in connection with
Records Were   every procurement. Because there was only one bidder, it
Incomplete     was essential that the CCC perform this cost or price

                                 31                      Report No. 9100117
analysis. Price analysis compares a contractor’s prices to
market prices. A cost analysis reviews each element of cost
to determine reasonableness. Without a cost or price
analysis, EPA had no assurance that contract expenditures
were reasonable. Neither of these documents were found in
the CCC’s files. Moreover, there was no documentation
showing a reason for contractor selection.

Also, the CCC did not maintain written standards of conduct
for employees awarding and administering contracts as
required by 40 CFR 30.42. The Executive Director explained
to us on April 28, 1998 that he had no such standards
because EPA had never provided him with a copy of the
governing EPA regulation.

The Application for Federal Assistance included a
Procurement System Certification, which required the
applicant to certify that it will follow EPA regulations. This
would have been the time the Executive Director should have
ensured that CCC complied with all applicable EPA
regulations. However, we found that the Executive Director
of the CCC did not sign this certification. Rather, the
contractor signed the Executive Director’s name with his own
initials next to the Executive Director’s name. The CCC’s
certification states:

      This is a new nonprofit organization. Its
      procurement procedures will comply with US
      Environmental Protection Agency regulations
      and standards.

The Executive Director also should have been aware of what
was contained in the CCC’s bylaws. We found that the
Executive Director of the CCC was also the Secretary and
Treasurer which is a violation of the CCC’s bylaws. Article
VI indicates “any two or more offices may be held by the
same person, except the office of Executive Director and
Secretary.”




                  32                       Report No. 9100117
Recommendation         4-1   We recommend that the Region III Administrator, in
                             conjunction with the recommendations in Chapters 2
                             and 3 of this report, recover costs associated with the
                             verbal agreement made between the CCC and
                             Redman/Johnston Associates.

Region III Response

We will review the grantee’s response, and defer any action on the recommendation
in the interim.

CCC Response

The CCC was incorporated to address needs identified by the LGAC work group.
Mr. Redman offered to act as agent for the incorporation to assure it would be in
place to provide funding for services to local governments. Mr. Redman's
involvement was never substantive in the operation of the Center and as the draft
points out, he resigned shortly after incorporation.

The draft asserts Redman Johnston had detailed knowledge of RFQ requirements.
LGAC and Bay Program procedures provide this knowledge be widely shared with
LGAC members and Bay Program staff. This did not provide a competitive
advantage since the same information is provided to all potential bidders. A
conflict of interest did not exist because the Center awarded two contracts to
Redman Johnston. The contractor was also the Executive Director of LGAC and as
such was responsible for preparing budgets, developing work plans and securing
LGAC approval of these proposals. Mr. Redman was also responsible for their
presentation before the Bay Program's Budget Steering Committee. These roles
involve full knowledge of the funds available and their purposes for future LGAC
work. Interactions between CCC, Bay Program Staff and the contractor
(representing LGAC) was therefore not only normal, it was expected by EPA.

EPA staff was fully aware that I intended to contract with Redman Johnston to
provide technical assistance and organizational start-up support to initiate the
activities of the Center. I regarded this work in many respects as an extension of
the work already completed by Redman Johnston to evaluate the need for, and
feasibility of using a non-profit organization to provide technical and financial
assistance to local governments. The actual contract for $9,894 was verbal. We
believe 40 CFR 30 Parts 43 and 44 do not prohibit our verbal agreement to a
contract in this amount since clear expectations existed, services were performed
based on these expectations, an invoice was rendered and reviewed by CCC and
EPA staff prior to payment, and full payment made based on the work completed.

                                         33                       Report No. 9100117
The draft report asserts an application dated July 30, 1997 was submitted by CCC
for services which covered incorporation and other services to create the Center. No
such application was submitted. I have not seen such an application. I know these
costs are not appropriate for a federal application. The application submitted in my
name in early August, 1997 (I was in North Carolina and authorized Mr. Redman
to sign my name) was the only application submitted.

I believe neither the facts nor the draft support the assertion that the second
contract for $155,000 was a "done deal." The Center used an RFQ process that was
identical to the COG’s in previous years, including as recently as 1996. We used
the same contractor list and evaluation procedures. The draft indicated Mr.
Redman preferred an RFQ process. It did not mention the RFQ process was the one
used by COG, which is why the CCC used it. Redman Johnston was not the
assured awardee.

Eighteen firms were sent the RFQ. I reasonably believed all eighteen firms
received the RFQ since none were returned. Inspector General staff verified that at
least six acknowledged receipt. Even this number is sufficient to assure
competition. Had additional qualifying responses been received, they would have
been fairly and objectively evaluated by parties other than myself. It is noted in the
draft that the list of RFQ recipients was obtained from Redman Johnston. Mr.
Redman's response indicated why this occurred.

I believe it was appropriate for Mr. Redman to review the draft budget titled
Draft 2, dated September 11, 1997, in light of his role with LGAC and his
responsibility to present the budget to the Budget Steering Committee. The draft
notes the application for assistance was faxed from Redman Johnston's office on
December 16, 1997. I was in New Orleans at an EPA meeting and asked a Redman
Johnston staff member (without Mr. Redman's knowledge) to submit the
application based on text I had reviewed and approved since the staff member had
a copy of the application on disk and I did not have such materials. After keying in
the text I had approved on the form, he forwarded it to EPA. During this period,
late January and February, 1998, I was in the hospital recovering from surgery.

Redman/Johnston Associates Response

It is correct that I spearheaded the incorporation of the CCC. I agreed to do that at
no cost to EPA. The EPA representatives indicated that if a nonprofit was formed,
they would continue to fund LGAC activities through the CCC. My actions to
create the nonprofit were designed to protect LGAC access to financial resources to
support their ongoing activities. Your report should note that Mr. Allen expressly
authorized and directed me to submit the grant application in his name.


                                          34                       Report No. 9100117
There is nothing improper about me being personally aware of future grant
availability. My job with LGAC was to prepare budgets based upon anticipated
funding. Concerning the comment that Redman/Johnston benefitted from the grant
made to the CCC, it is accurate that there was an addendum to an existing contract
that resulted in additional work and revenue to Redman/Johnston, which was
funded through a grant which I assisted the Center in preparing.

In investigating circumstances concerning the RFQ that was faxed from my office, I
have learned that you requested this list from Mr. Allen, who requested a former
employee of mine (the same one that now works for the Center) to obtain a copy on
his behalf from the COG. Apparently, he obtained a copy and forwarded it to the
Center without my knowledge. I recognize that he was an employee of my firm at
that time. Nevertheless, I repeat, I have never seen such a list. In fact, it appears
that the only reason such a list was ever in my office at all was because you
requested it of the Center, and at Mr. Allen’s request, my employee became a
transmittal middle man, after the contract was awarded, I should add.

Work done to prepare the feasibility report was authorized in my contract with
COG. Unfortunately the level of effort required to explore the feasibility of creating
the Center, did not satisfy some LGAC members who expected to see a detailed
report. The need for the detailed report and additional related work performed
regarding start up for the Center was discussed with EPA staff and additional work
was approved by EPA as an extra. At that time it was understood that the
estimated cost to complete the work would be $10,000. Rather than process a
contract amendment through COG, EPA staff recommended that I receive
compensation from the $45,000 initial grant to be made to the Center. I accepted
that arrangement and performed the work accordingly. Therefore it does not seem
reasonable to disallow costs associated with preparation of the feasibility study
since I was contractually obligated to complete this task within the scope of work.

OIG Evaluation

The ability of a Redman/Johnston Associates employee to obtain the RFQ list
(before contract award and not after as Mr. Redman contends) and a disk copy of
the CCC’s grant application is a problem. Even more disturbing was the disclosure
by the CCC’s Executive Director, during our exit conference, that an employee of
Redman/Johnston Associates mailed the RFQ to the 18 potential bidders for him.
Although Mr. Redman’s actions to create a nonprofit were purportedly to protect
LGAC access to financial resources, by doing so he also protected the contract
revenues his company received for LGAC support.

Although interaction between CCC, Chesapeake Bay Program Staff and the
contractor (representing LGAC) was considered normal and expected, we believe

                                          35                       Report No. 9100117
 that there is an inherent conflict of interest between the contractor’s position as the
Executive Director of LGAC and his position as the President of Redman/Johnston
Associates. For example, the contractor developed the LGAC workplan and budget
that contained amounts estimated for the contract he eventually competed for.
Subsequently, he presented this same budget that he developed to the Chesapeake
Bay Program’s Budget Steering Committee.

The responses from the CCC and Redman/Johnston Associates confirmed that the
contractor “spearheaded” the CCC incorporation and submitted the CCC’s grant
application to EPA. Their responses also confirm that Redman/Johnston was privy
to LGAC budget information. The budget document [Draft #2] we discussed in our
report provided Redman/Johnston information about the future amendment to the
cooperative agreement that EPA would award to the CCC, and the contract the
CCC would award as a result of receiving the amendment.

Title 40 CFR 30.46 requires a recipient to have procurement records that include, at
a minimum, the basis for contractor selection; justification for lack of competition
when competitive bids or offers are not obtained; and the basis for award cost or
price. Verbal contracts do not comply with this requirement nor are such contracts
good business practice. Although the CCC Executive Director and the President of
Redman/Johnston contend there were clear expectations about the verbal
agreement, a transaction involving almost $10,000 involves too many details that
cannot be left to memory.

The CCC’s Executive Director asserts that he neither saw or submitted a grant
application dated July 30, 1997. However, we obtained this document from
Region III files and it contains Mr. Allen’s signature. A review of this application
by the Region III Grants Office disclosed that it contained unallowable costs for
items such as incorporating the CCC and fund raising. Annotations in Region III’s
files indicate that the results of the Region III review were sent to
Redman/Johnston, which ultimately sent these same comments to the Executive
Director of the CCC. Subsequently, the application was revised and the President
of Redman/Johnston affixed Mr. Allen’s signature to it before resubmitting it to
EPA.

We disagree with the CCC’s contention that all 18 firms received the RFQ.
Personnel from two of these companies told us they did not receive the RFQ. We
determined this occurred because the addresses on the CCC’s list were incorrect.
Four other companies did not exist; there were no telephone or Internet listings for
them. We attempted to locate them through Dunn and Bradstreet, and EPA’s
Office of Criminal Enforcement, Forensics and Training, which searched Secretary
of State Corporate Records and Uniform Commercial Code filings. The CCC’s
response indicates they used the COG’s 1996 RFQ list. Attempting to obtain

                                           36                       Report No. 9100117
 competition with an RFQ list that was almost two years old, without verifying its
accuracy, does not appear to be prudent.

EPA regulations prohibit Redman/Johnston Associates from competing for the
contract awarded by the CCC. The contractor submitted the grant application
containing provisions that identified how much money was budgeted for the
contract it eventually received. The contractor and the CCC’s Executive Director
participated in the feasibility study that decided a new nonprofit was needed. The
contractor incorporated this new nonprofit [the CCC] without compensation before
it received a sole source verbal contract from the CCC. Subsequently, the
contractor was the only bidder for a second contract awarded without the cost or
price analysis required by EPA regulations. In our opinion, these events raised a
real or apparent conflict of interest which 40 CFR Part 30 required the CCC to
avoid.




                                         37                       Report No. 9100117
                      CHAPTER 5

EPA MUST ENSURE THAT RECIPIENTS HAVE AN ADEQUATE
          FINANCIAL MANAGEMENT SYSTEM


          The CCC did not properly account for Federal funds because
          it did not have an adequate financial management system.
          Moreover, the contractor did not have an adequate financial
          management system. According to EPA requirements, a
          recipient’s accounting system must account for all costs
          incurred under a project and must consistently apply
          generally accepted accounting principles. As a result, the
          abilities of these organizations to record, process, summarize
          and report financial data were adversely affected. This
          condition affects all the cooperative agreements awarded to
          the CCC.

          EPA’s Assistance Administration Manual requires the
          Agency’s program office, as part of the technical review of the
          application, to assess the applicant’s overall capabilities to
          implement the intended activity efficiently and effectively.
          The manual indicates that reviews should cover such items
          as adequacy of financial management and accounting
          procedures. Title 40 CFR 30.21 requires the recipient’s
          accounting system to provide the following:

          ‘     Accurate, current and complete disclosure of the
                financial results of each federally-sponsored project.

          ‘     Records that adequately identify the source and
                application of funds for federally-sponsored activities.
                These records will contain information pertaining to
                Federal awards, authorizations, obligations,
                unobligated balances, assets, outlays, and income.

          ‘     Effective control over and accountability for all funds,
                property and other assets. Recipients will adequately
                safeguard all such assets and assure they are used
                solely for authorized purposes.



                            38                       Report No. 9100117
                         ‘       Comparison of outlays with budget amounts for each
                                 award. Whenever appropriate, financial information
                                 should be related to performance and unit cost data.

                         ‘       Written procedures for determining the
                                 reasonableness, allocability and allowability of costs in
                                 accordance with the applicable Federal cost principles
                                 and the terms and conditions of the award.

                         ‘       Accounting records including cost accounting records
                                 that are supported by source documentation.

CCC Disregarded          At the time of our review, EPA
Budget                   was the sole source of the CCC’s        EPA funds used to
                         funding. As of May 1998, the            prepare assistance
                         CCC had drawn down $139,000                 applications
                         from EPA and disbursed over
                         $73,000. The CCC was using
                         the advanced payment method to obtain funds under the
                         assistance agreement. According to 40 CFR 30.22(b), cash
                         advances to a recipient organization will be limited to the
                         amounts needed for the approved program or project. We
                         reviewed these disbursements and found the CCC
                         disregarded EPA requirements when it used funds for
                         projects that were not part of the cooperative agreement.

                         Both the cooperative agreement and subsequent amendment
                         contained detailed budgets for all costs. These budgets are
                         required as part of the grant application process. However,
                         the CCC’s expenditures indicated that the Executive Director
                         disregarded the detailed budgets when he expended funds.
                         For example, the CCC paid one employee of
                         Redman/Johnston Associates $1,500, for preparing proposals
                         in order to apply for other grants.4 Subsequently, the CCC
                         received one of these assistance awards from EPA. Since
                         preparing these applications is not covered by the
                         cooperative agreement, Federal funds advanced to the CCC
                         should not have been used to pay these costs. In accordance
                         with EPA’s

4. EPA selected the CCC for the 1997 Sustainable Development Challenge Grant Program. One of
the partners listed on the CCC’s project description was Redman/Johnston Associates. EPA also
awarded the CCC $391,000 under a cooperative agreement for the Small Watershed Grants
Program. The employee that prepared the proposals is no longer employed by the contractor and is
now employed by the CCC as the Director of Programs.
                                                  39                       Report No. 9100117
              Assistance Administration Manual, a recipient’s accounting
              system must include records that allow comparison of actual
              costs with budgeted costs for each project.

CCC’s Costs   We also found the CCC did not maintain adequate support
Unsupported   for its expenditures. The CCC’s supporting documentation
              consisted of a haphazard collection of canceled checks, bank
              statements and invoices. However, we could neither link
              these documents to funds received under the cooperative
              agreement, nor could we determine if the expenditures were
              justified.

              For example, the CCC’s expenditures included $184 for
              lunches for two CCC board meetings. These lunches were to
              be provided to board members on the day of the CCC’s board
              meetings. However, the CCC did not maintain minutes of
              the board meetings or any other supporting documentation.
              Moreover, the CCC claimed the salaries of board members
              that attended the meetings as an in-kind expenditure
              chargeable to the cooperative agreement. In accordance with
              OMB Circular A-110, volunteer services may be counted as
              cost sharing or matching if the service is an integral and
              necessary part of an approved project. However, since there
              is no record of the board meetings, the CCC could not justify
              the basis for the in-kind services used as the recipient
              contribution to the cooperative agreement.

              At the time of our review, the Executive Director received:

                    – $42,252 for Salary
                    – $2,474 for Health Insurance
                    – $448 for Life Insurance
                    – $5,128 for Retirement Benefit Contribution
                    – $2,000 reimbursement to himself for miscellaneous
                    items such as office supplies, phone, travel and office
                    expense.

              However, he did not maintain documentation, such as
              timesheets or a time distribution system, as required by
              OMB Circular A-122 to support his time charged to the
              cooperative agreement. Section L of OMB Circular A-122
              titled, Support of Salaries and Wages, requires that reports
              reflecting the distribution of activity of each employee must

                                40                       Report No. 9100117
                     be maintained for all staff members whose compensation is
                     charged, in whole or in part, directly to awards. These types
                     of documents are needed to segregate the eligible work from
                     ineligible work and to support the number of hours charged
                     to the cooperative agreement. Because these documents
                     were not maintained by the CCC, we were unable to
                     determine if EPA funds were used in an effective and
                     efficient manner, and only for eligible and allowable costs.
                     Without this assurance, we considered these costs
                     unsupported.

                     EPA should not have allowed the CCC to use the advanced
                     payment method to obtain funds from EPA because it did not
                     have an adequate financial management system. According
                     to OMB Circular A-110, reimbursement is the preferred
                     method when the recipient fails to meet the standards for
                     fund control and accountability as established by EPA
                     regulations.

                     In accordance with EPA’s Assistance Administration
                     Manual, supporting documentation must include everything
                     needed to explain a transaction. Recipients must cross-
                     reference supporting documentation so that a transaction
                     can be traced from any document dealing with the
                     transaction back to the initiating documents, and forward to
                     entries in the accounting system. The CCC’s record keeping
                     did not satisfy this requirement.

Contractor’s Costs Contractor personnel also did not use timesheets or any
Unsupported        mechanism to support actual hours charged to the contract.
                   Moreover, the contractor did not segregate costs associated
                   with non-government funded business from the costs
                   chargeable to the contract funded by EPA.

                     From October 1, 1997 through December 15, 1997,
                     Redman/Johnston Associates was simultaneously billing two
                     contracts funded by EPA. One contract was with the COG
                     for LGAC support and the other was the $10,000 awarded by
                     the CCC. One contractor employee charged a total of 521
                     hours to these contracts, but could not provide timesheets of
                     the actual days he worked on each contract.



                                       41                       Report No. 9100117
                   Redman/Johnston Associates was awarded time-and-
                   materials contracts for the LGAC support. Payments under
                   time-and-materials and labor-hour contracts must be
                   substantiated by individual daily job timecards. However,
                   the contractor did not keep daily timesheets and could not
                   support actual costs or hours charged. Instead, the
                   contractor divided the total amount of the contract over
                   twelve months, and then billed the monthly amount. The
                   contractor’s method of billing was to submit a monthly
                   invoice with an estimated number of hours that each
                   employee worked under the contract. When the contract
                   expired, the contractor had been reimbursed the total
                   amount of the award. In effect, the contractor billed as if the
                   contract was a fixed-price contract.

                   In accordance with 40 CFR 30.44 (c) and OMB Circular
                   A-110, the type of procuring instrument used should be
                   determined by the assistance recipient, but should be
                   appropriate for promoting the best interest of the project. In
                   our opinion, a time-and-materials contract is the least
                   preferred contract type and should be used when no other
                   type is suitable.

Conclusion         We found that neither the CCC nor Redman/Johnston
                   Associates had financial management systems or internal
                   control structures in place to properly account for Federal
                   funds.


Recommendations We recommend that the Region III Administrator:

                   5-1   Discontinue all payments to the CCC and review all
                         costs already incurred under the cooperative
                         agreements for allowability and reasonableness. To
                         that end, labor amounts billed by Redman/Johnston
                         Associates not supported by adequate timesheets
                         should be disallowed.

                   5-2   Prior to awarding assistance agreements and before
                         allowing advance payments, ensure that recipients
                         have developed and implemented adequate internal
                         controls and financial management systems that
                         comply with OMB Circulars and EPA regulations.

                                      42                       Report No. 9100117
                       5-3    Contact our office prior to grant closeout to afford us
                              the option of performing a final audit of the
                              cooperative agreement.

Region III Response

Region III concurs in-part with Recommendation 5-1. The Region discontinued
payments on the cooperative agreement in a letter to the CCC dated November 19,
1998. Based upon a thorough on-site review of the financial management systems
of the CCC, conducted on December 3-4, 1998, we have resumed payments in
accordance with requirements of the grant agreement.

Region III concurs in part with Recommendation 5-2. At the time of application for
cooperative agreements, grantees provide certifications that they will maintain
adequate financial records. The Region will continue to require and review all
grantee financial management system certifications as part of its review of
applications. We cannot perform in-depth site reviews of all grantee records before
authorizing payments. This would result in delays in payments and would be
counter to the Prompt Payment Act provisions.

CCC Response

The Center for Chesapeake Communities was in the process of “starting up” during
the period prior, during and after the review was carried out. Every one of the
“systems” and much of the documentation noted in the report were in the process of
being created and are now in place. I believe it is unreasonable to believe that any
new organization would have all systems, policies, and manuals fully developed in
the first eight months of its existence. The report fails to note why the creation of
certain systems were delayed and why the Executive Director sought and received
critical volunteer help from knowledgeable, skilled and trusted persons. During the
period from December through March 1998 my attention to Center start-up was
secondary to extraordinary health issues.

The Center's largest expenditure, fully consistent with the authorized grants and
funds then received, was my salary. Until May, 1998, I was the only employee. It
was easily verified then, and has since been reviewed and verified by EPA Grants
and Audit Staff, that the salary and benefits paid to me were both appropriate and
consistent with the budgets submitted to EPA. The percentages cited in the draft
report concerning payments to me are accurate but easily misleading since during
all but the last 30 days of the entire period of September, 1997 to April, 1998 the
bulk of all the funds available were for my salary.



                                          43                       Report No. 9100117
It is important to note that I had already initiated procedures to address the
requirements of 40 CFR Part 30. The draft asserts that the Executive Director
disregarded the detailed budget when funds were expended. This is not the case.
Rather, close attention was paid to these budgets and EPA requirements when
these expenditures were made. The CCC did employ a Redman Johnston employee
on a consulting basis during late March and early April 1998 because help was
needed to address critical grant and EPA requirements. The items cited in the
draft footnote are in error and misleading. No funds were paid to anyone for the
development of an application for a Sustainable Development Challenge Grant.
This application was submitted in August 1997.

I did secure help to (1) develop a final draft of a training program required by our
start-up grant, (2) provide copy of the small water shed grant required by EPA Bay
Program Budget Steering Committee, (3) consult on a draft memo to the Governor
of Maryland on the Summit required by our grant, (4) consult on the configuration
of office equipment for a new Center office, (5) consult on the content of a draft
brochure for the Center (again required by our grant), and (6) respond to certain
technical questions from EPA Grants and audit staff on our budgets for ongoing
and proposed work. All of these activities are authorized by our grant from EPA.
The individual involved had knowledge and skills I believed were essential to our
work and I had no other staff to draw on and could not, in good conscience, continue
to constantly ask for such enormous time commitments for free.

Board meetings were documented, EPA Staff was present. IG Staff had access to
copies of the agenda and other supporting materials in the files provided at the
time of their visit. Minutes were not available.

Redman/Johnston Associates Response

The draft report indicated the CCC "paid one employee of Redman/Johnston
Associates $1,500 for preparing proposals in order to apply for two other grants".
Redman/Johnston Associates provided some support in the preparation of the
Sustainable Development Challenge Grant application. This assistance was
limited since our contract at that time made no provision for compensation for such
work. However, at no time was I aware of any arrangement between the Center
and the employee to be compensated in the amount of $1,500 for preparing these
proposals. Such action was never sanctioned by Redman/Johnston Associates, nor
did Redman/Johnston Associates receive any income for this work. This apparently
was an arrangement between my about-to-be-former employee and his prospective
employer. It was not an arrangement with Redman/Johnston Associates.

Redman/Johnston Associates has been a contractor with COG for more than three
years. At no time was our record keeping and billing questioned. Redman/Johnston

                                         44                      Report No. 9100117
Associates requested each payment on an invoice describing the work performed
and the period of performance of the work. The contract does not mandate that
Redman/Johnston Associates keep time records as a condition for payment.
Although the phrase "time and materials" is used in the contract, it is not a typical
"time and materials" contract as defined by the Federal Acquisition Regulation, but
is more characteristic of a "fixed fee" contract. Specifically, the contract did not
specify a fixed hourly rate, which is required for "time and materials" contracts
under the Federal Acquisition Regulation. We viewed the contract as a fixed price
contract, and understood that we would be paid the budgeted amount for the work
performed.

It seems unreasonable for you to indicate that none of the costs are supportable
since I provided the audit team copies of reports and documents reflecting
completion of many of the tasks budgeted for in the contract. In most cases, the
staff time needed to complete work assignments was greater than amounts
budgeted. In those cases, I did not submit invoices for additional staff hours
because it was our belief that we were committed to complete the assignments for
the prices in the contract. We assumed any additional time it might take was not
billable, and treated the contract as a fixed price contract. EPA staff who monitored
my performance of contract responsibilities during the period March 1997 to March
1998 have never indicated any failure on the part of my firm to complete contract
assignments and to do so within the price structure defined in the contract.

Please be advised that since April of 1998, we have adjusted our administrative
procedures as a result of your audit team's visit. They provided me the first clear
indication that our contract administrative procedures required us to maintain
daily time records. Since that time, personnel at Redman/Johnston have been
required to keep time sheets for all work related to LGAC assignments. These time
sheets now accompany our monthly invoices to the CCC.

OIG Evaluation

During May 1998, we conducted an on-site review of the CCC’s financial records.
As a result of this review, Region III discontinued payments to the CCC in
November 1998. Subsequently, the Region conducted its own review of the CCC’s
expenditures, and determined that the CCC had improved its financial system, and
could show that its expenditures were supported by receipts. In their opinion, the
CCC’s financial management system properly documented the costs incurred under
the three EPA cooperative agreements. Based on this review, Region III reinstated
payments to the CCC in early December 1998.

Our analysis of the Region III review disclosed that Region III did not determine if
the CCC’s expenditures were reasonable and allowable under the grant, as we

                                          45                       Report No. 9100117
recommended in our draft report. Without this determination, the Region’s review
was incomplete, and we disagree with Region III’s action to reinstate payments
before determining reasonableness and allowability of costs. In essence, the Region
determined that the CCC now had receipts for its expenditures, but the Region did
not evaluate whether or not the expenditures were reasonable and allowable under
the grant.

Further analysis of the Region III financial review revealed that the CCC’s
accounting procedures still do not provide for the identification and segregation of
unallowable costs. For example, the Region III report showed that the CCC
charged the cooperative agreement $6,500 for fund raising. The CCC was informed
by Region III officials at the inception of the grant that fund raising costs were
unallowable, and any reference to these activities should be deleted from the
budget. The Region III review also revealed that the CCC had overdrawn funds on
one cooperative agreement by more than $82,000 and underdrawn another
cooperative agreement by $35,000. These examples represent additional
occurrences where the CCC did not follow the budgets contained in the cooperative
agreements with the EPA.

The CCC’s response stated that no funds were paid to a Redman/Johnston
Associates employee for preparing assistance agreements, but were paid for other
activities authorized under the grant. Moreover, during the exit conference, the
Executive Director indicated that he had a written consulting agreement with the
employee, which he forwarded to us.

We disagree with the CCC Director’s position that the $1,500 paid to the
Redman/Johnston Associates employee was only for eligible work. At the time of
our site visit, we requested the Executive Director to clarify this expense and he
indicated the check was for grant writing. In a later conversation, the Executive
Director again told us he paid $1,500 to the Redman/Johnston Associates employee
to prepare the EPA grant application for the Small Watershed Grants Program.
This grant writing is not eligible under the grant we reviewed. It is also
noteworthy that we did not consider the document provided as a valid consulting
agreement because it was not signed or dated by either party. As a result, our
position regarding this cost remains unchanged.

We disagree with the CCC’s comment that IG staff had access to copies of the board
meeting agendas. This information was not available at the time of our site visit.
We again requested copies of these agendas during our exit conference, but we have
not received them to date.

Redman/Johnston Associates comments also indicated that they viewed the LGAC
support contract as a fixed-fee contract, and not a time-and-materials contract. We

                                         46                       Report No. 9100117
 disagree with this conclusion because all of the Redman/Johnston invoices were
prepared as time and material invoices. Each monthly invoice included the hourly
labor rates multiplied by the number of hours each employee charged. It also
itemizes materials and other miscellaneous expenses. These invoices indicate that
the contract was administered as a time-and-materials contract.

Redman/Johnston Associates commented about EPA reviewing the contractors
invoices, and that EPA monitored its performance; however, we believe EPA should
not have any involvement with a contractor under an assistance agreement.

We disagree with the CCC’s response regarding how long a new organization
should be allowed to have its systems, policies and manuals in place. We are
sympathetic to the Executive Director’s health issues, but these health issues were
not a factor during the first three months of the grant period. Moreover, the
Executive Director knew many months before the initiation of the grant that the
CCC would be formed. EPA regulations require recipients to have these systems in
place before the grant starts, and Region III was responsible for ensuring they were
in place and operational before awarding the grant.




                                         47                       Report No. 9100117
                 Exhibit A - Analysis of Expenditures by the CCC


                                    Auditor’s Opinion

                                             Costs
                             Period of       Expended as   Costs      Costs
Funding Instrument           Performance     of May 1998   Accepted   Unsupported   Note

Cooperative Agreement        November 1997
CB993675-01 awarded to the   to May 1998     $73,621       -0-        $73,621       1, 2, 3
CCC


Note 1:       At the time of our fieldwork, the CCC expended $73,621.
              We considered the entire amount unsupported for the
              reasons discussed in this report.

Note 2:       The $10,000 verbal contract with Redman/Johnston
              Associates should not be charged to the cooperative
              agreement. These costs are unallowable because work on
              the feasibility study was not authorized under the
              cooperative agreement awarded to the CCC.

Note 3:       The $1,500 used for preparing assistance applications is
              also not included in the scope of work of the cooperative
              agreement and should be disallowed.


Region III Response

The Regional Grants and Audit Management Branch conducted a site review of the
CCC’s financial management system and financial records. From this review we
have obtained supporting documentation for the $73,261 which the audit cites as
unsupported. A copy of our financial systems review is being forwarded under
separate cover. We defer response on the two specific issues in Exhibit A to the
grantee and contractor.

CCC Response
The CCC’s comments to these issues are contained in Chapters 4 and 5.

Redman/Johnston Associates Response
The contractor’s response to the verbal contract issue is contained in Chapter 4.

OIG Evaluation
Our evaluation of the responses are included in Chapters 4 and 5

                                             48                       Report No. 9100117
                   Exhibit B - Costs Claimed by the Contractor

                                    Auditor’s Opinion


                                               Costs
                               Period of       Expended    Costs      Costs
 Funding Instrument            Performance     as of May   Accepted   Unsupported   Note
                                               1998

 Contract Awarded by the COG   March 1997 to   $204,000    -0-        $204,000      1
 under Cooperative Agreement   March 1998
 CB003983-06-0


Note 1:       During our fieldwork, we reviewed the invoices associated
              with the last contract the COG awarded to
              Redman/Johnston Associates. The period of performance
              for this contract was March 1997 to March 1998. We
              considered the entire $204,000 to be unsupported because
              the expenditures were not supported by adequate
              documentation. We did not review invoices applicable to
              the previous contracts the COG awarded to
              Redman/Johnston Associates. However, discussions with
              the contractor indicated the record keeping and billing
              methods used for these contracts were essentially the
              same as the contract we reviewed.

              We did not review costs incurred by Redman/Johnston
              Associates under the contract awarded by the CCC for
              LGAC support. At the time of our review,
              Redman/Johnston Associates services under this contract
              were just beginning.

Region III Response
Defer to Grantee or contractor’s Response.

Redman/Johnston Associates Response
Redman/Johnston Associates comments to this exhibit are included in Chapter 5.

OIG Evaluation
Our evaluation of the contractor’s response is included in Chapter 5.




                                               49                     Report No. 9100117
Exhibit C - Excerpt from Revised Application for EPA Assistance




                              50                   Report No. 9100117
Appendix 1 - Region III’s Response to the Draft Report




                         51                    Report No. 9100117
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION III
                                       1650 Arch Street
                            Philadelphia, Pennsylvania 19103-2029

                                                                              March 10, 1999


SUBJECT:      Response to Draft Audit Report on the
              Center for Chesapeake Communities
              Report Number E6DEP8-03-0014

FROM:         W. Michael McCabe
              Regional Administrator (3RA00)

TO:           Carl A. Jannetti
              Divisional Inspector General for Audit (3AI00)



        This responds to the Draft Audit Report on the formation of the nonprofit Center for
Chesapeake Communities (CCC). This audit was requested by an Advisory Committee of the
Chesapeake Bay Program with full support of the Region. We saw it as an opportunity to clarify
and strengthen policies in a particularly confusing area of grants management related to awards to
nonprofit organizations. The audit was so noted in our annual Assurance Letter under the Federal
Managers Financial Integrity Act.

        The Region concurs with virtually all the Recommendations outlined in the Draft Report,
and in a number of instances has already taken actions which have the effect of carrying out the
Recommendations in whole or in part. This includes a site review and evaluation of the Center’s
financial management and records systems; development of a management plan for competing
nonprofit grants in the Chesapeake Bay Program Office; issuance of the first Request for
Proposals under the new competitive procedures outlined in the management plan; and initiation
of a vulnerability assessment for all Bay Program grants. Other actions will be taken in full
response to the Recommendations made in the Final Report.

        In retrospect, given the clarification of policies which will result from the Draft Report, as
well as controversy within the Local Government Advisory Committee (LGAC) over the
formation of the Center, it would have been better to have competed this grant. This would have
eliminated any appearance of preferential treatment even where there was none, as in this case.
The Bay Program is currently engaged in a process to do just that for a successor grant. At the
same time, it is important to note that the Bay Program was following normal and customary
practice, and that Agency policy provides a considerable degree of discretion to the Program
Manager to make determinations of the need for formal competition. The Chesapeake Bay
Program employs considerable competition in the selection of priority projects and tasks through
an open Budget Steering Committee process involving dozens of organizations, and it was
assumed that this provided ample competition to meet the intent of Agency policy. Given the
concerns identified in the Draft Report, the Region will evaluate its procedures for competition
and implement changes as may be necessary.

        The Region further agrees that as the new nonprofit was formed, the Center and the
                            Customer Service Hotline 1-800-
                                                  2

contractor should have acted in ways which would have eliminated any appearance of a conflict
and the complaints that resulted. Simple preventative measures should have been taken or used
much earlier in the process: the LGAC Vice-Chair should have stepped down from the
Workgroup Chairmanship when he first started considering launching a nonprofit; he should have
informed the LGAC of the Center’s creation in a timely manner and recused himself on all matters
affecting the nonprofit decision; and a clearer separation should have been made between the
work of the contractor and the Center’s issuance of an RFQ used to employ the new LGAC
support staff. We recognize the inherent difficulty of anyone conducting business with the
LGAC without interacting with their official support staff, Redman/Johnston and Associates.
However, greater efforts should have been employed to ensure separation of the roles and avoid
any appearance of conflict in contracting. The Region took strong action in September 1997,
prior to the award of the first Center grant, to seek written assurances from the CCC Director
about avoiding even the appearance of a conflict of interest in future actions.

      To provide further context and to correct misleading statements in the Draft Report, we
recommend that the following issues be clarified:

         First, it was not the practice of the Bay Program to compete such small grant awards in
discretionary program areas. Project level competition is common in the Bay Program and
grantee competition is common for national grant programs such as Environmental Education and
Environmental Justice but not for smaller discretionary programs. It was common practice for
the Region to accept a concise statement of justification for non-competition in grant awards. In
fact, the file justification for this award far exceeded in level and detail what is typical for other
similar grants. No extraordinary efforts were taken by the Region to streamline the award of this
grant so as to deny others the opportunity to compete. In fact, at the time of initial grant award,
no other eligible and interested organization was known to the Region.

        Second, the Program was working under a clear mandate from the Chesapeake Executive
Council to significantly enhance technical and financial assistance to local governments to meet
Bay Program objectives. A critical recommendation of the Local Government Participation
Action Plan, central to many other of the commitments being fulfilled, was investigating the
feasibility of a new nonprofit since it had been established through extensive outreach that
capacities to assist locals were needed throughout the watershed.

         Third, a broad-based Workgroup was employed to develop the Feasibility Report which
was essentially completed on schedule in June 1997, prior to the CCC’s incorporation. This
consensus report of the Workgroup, involving 12 participants in total and 5 existing nonprofit
entities, made a clear recommendation that “there is currently not a non-profit organization that
serves as a regional resource organization in the watershed with a local government focus.”
Significant efforts were also made by the Workgroup staff to contact existing service providers in
the Region to see if the work could be done through existing means. Staff reported directly to the
Workgroup, which included EPA, that they could not identify a willing nonprofit entity.
Documentation of this search and of the Workgroup’s serious concern for impacts on existing
service providers is provided in the Feasibility Report.

      Fourth, no objections to the formation of the nonprofit were heard from the Virginia state
government or LGAC representatives on the Workgroup, or from the Washington Council of
Governments, during the drafting of the Feasibility Report. Last minute objections from Virginia
                                                 3

representatives, after the report was essentially completed, evidenced a breakdown in
communications between career civil servants and these appointees on this matter, which EPA
could not have anticipated. This created confusion about the consensus reached in the
Workgroup. Confusion was also evidenced in the change of position and the late expression of
interest in this award by the Washington Council of Governments, whose staff cited suburban
Virginia representatives as the source of the last minute change of position.

         Finally, EPA has an obligation under the Clean Water Act to ensure adequate support to
the operations of the Bay Program, which is comprised of over a dozen major committees and
three advisory committees. The active grant in 1997 was scheduled to come to a close in early
March 1998 and the current grantee (WASHCOG) had indicated for years its desire to terminate
its role. The Region was therefore required to expeditiously identify an alternative, prospective
grantee. Time urgency weighed heavily since the grant for LGAC services was expiring. Because
of the impending expiration of the grant and the time required to process a new grant, the Bay
Program could not wait an indefinite amount of time for final LGAC approval due to the need to
support the Advisory Committee. LGAC’s meeting schedule and a pattern of intentional delays
were not conducive to providing input to this decision in a timely manner.

        There are a number of other places in the Draft Report which are not clear, and where the
material presented or analyzed could lead the reader to a misleading or incorrect conclusion.
For example, extensive parts of the report are based on the erroneous assumption that the
Region’s motivation was to use the nonprofit grant recipient as a means to fund a profit-making
contractor in violation of procurement regulations. In fact, the contracting out of some services
to a profit-making organization by the nonprofit grantee is a practice that had a history predating
the current grantee and is permissible under EPA rules. The selection of the contractor was
within the full authority and discretion of both previous and current grantees.

        Under these circumstances, it is misleading to include in the Introduction and Chapter 3 of
the Draft Report allegations that the Region was trying to avoid procurement regulations. This is
simply not the case. The Region sought out no contractors, instructed no grantee to contract,
were not the direct beneficiary of the grant, and avoided no procurement regulations. This
section of the Report and the relevant parts of the Introduction should therefore be deleted or
corrected.

        Other serious inaccuracies in the Draft Report relate to compliance with law and Agency
policies. The Draft Report makes declarative statements that the Region did not comply with
Agency Fact Sheets and the Federal Grant and Cooperative Agreement Law with respect to
competition for grants. While we acknowledge above that, in retrospect, competing this grant
could have averted any appearance of conflict, we do not concur with these statements and wish
to point out the full context of these documents.

         Agency policy, as articulated in the Grants Management Fact Sheet for Agency Leaders
entitled Competition for Assistance Agreements, Number 9, states that “the Agency encourages
fair and open competition in the award of discretionary assistance agreements.” (Emphasis
added.) This does not constitute a requirement to do so in the case of every grant awarded. In
fact, the Fact Sheet clearly states that “Program Leaders should determine up-front if a
competitive process is appropriate for your assistance program.” (Emphasis added) Further, the
Federal Grant and Cooperative Agreement Act of 1977 “encourages competition, where
                                                 4

appropriate, in the award of grants and cooperative agreements.” (Emphasis added.)

        The Program Leader and the Project Officer in this case made a determination that there
was adequate justification for non-competition of this award, based upon the extensive file
documentation including the draft, 50-page Feasibility Report, many months of consultations and
research, and two levels of management review within the Region. It was typical and customary
for the Region to accept concise justifications for grants awarded without formal competition.
This grant well exceeded the normal standard for such justifications. We therefore request that
these statements in the report be modified to show the entire policy in its correct context, and not
just selected portions of it. We further request that you modify these statements to reflect the
discretionary nature of this determination and the degree of judgment involved..

        Citing Executive Order 12674, Principles of Ethical Conduct, the report asserts that
Region III did not act impartially and without preferential treatment to an organization or
individual. At the time of grant award, the Region was not aware of any other eligible and
interested prospective grantee, after months of extensive consultations and research conducted by
the Feasibility Workgroup and by Region III independently. The Metropolitan Washington
Council of Governments (COG) had not expressed interest in continuing this grant at that point.
Therefore, EPA could not have acted in preference to one organization at the exclusion of a
known, alternative option. There are no assertions of personal friendship or association in the
report. Further, no one in EPA directly benefitted from any of these actions. Therefore, this
assertion that Region III officials did not comply with the Principles of Ethical Conduct is
incorrect and should be deleted in its entirety.


Response to Audit Recommendations

      Based upon our reading of the Draft Report, we offer the following summary of EPA
Region III responses to the recommendations:

Recommendation 2-1: Terminate the Existing Cooperative Agreement Awarded to the CCC

The Region agrees that the existing cooperative agreement should be brought to an end and be
replaced by a new grant arrangement as determined by the outcome of a competitive Request for
Proposals (RFP). It is critical to maintain LGAC and other project support, and a precipitous
action to replace it could lead to the same issues of non-competition raised by the Inspector
General. We will transition to the successful candidate(s) under the new RFP on or around
August 1, 1999.

Recommendation 2-2: Award a New Cooperative Agreement Competitively

Concur: The Region has taken steps to compete the local government assistance functions
consistent with an overall Bay Program management plan. By taking such action, the Region
does not indicate concurrence that the initial justification for non-competition was inadequate.

Recommendation 3-1: EPA Should Obtain LGAC Services Directly

The Region has agreed to a future limit on the amount of contracting under Cooperative
Agreements for this and similar Bay Program efforts. We have done this by specifying
                                                5
evaluation criteria under the RFP which promote work being done in-house by prospective
grantees.

Recommendation 4-1: Recover Costs Associated with a Verbal Agreement

This finding should be directed to the grantee. We will review the grantee’s response, and defer
any action on the Recommendation in the interim.

Recommendation 5-1: Discontinue Payments

Concur: The Region discontinued payments on the cooperative agreement in a letter of
November 19, 1998. Based upon a thorough on-site review of the financial management systems
of the CCC conducted on December 3-4, 1998, we have resumed payments in accordance with
requirements of the Grant Agreement.

Recommendation 5-2: Pre-Award Review of Fiscal Accounting Systems

Concur in Part: At the time of application for cooperative agreements, grantees provide
certifications that they will maintain adequate financial records. The Region will continue to
require and review all grantee financial management system certifications as part of its review of
applications. We can not perform in-depth site reviews of all grantee records before authorizing
payments. This would result in delays in payments and would be counter to the Prompt Payment
Act provisions.

Response to Exhibits A and B of the Draft Report

Exhibit A: Analysis of Expenditures by the CCC

The Regional Grants and Audit Management Branch conducted a site review of the CCC’s
financial management system and financial records. From this review we have obtained
supporting documentation for the $73, 261 which the audit cites as unsupported. A copy of our
financial systems review is being forwarded under separate cover. We defer response on the two
specific issues in Exhibit A to the grantee and contractor.

Exhibit B: Costs Claimed by the Contractor

Defer to Grantee or contractor’s Response.

        We request that you consider all the changes we have suggested in the final report so as to
ensure a fair presentation of the facts and to provide the most useful response to the Local
Government Advisory Committee. We also request an exit briefing before the issuance of the
final report for the purposes of securing an explanation of how our comments have been
addressed.

        If you have any questions or need any additional information, please contact Robert G.
Reed, Jr., Chief, Grants and Audit Management Branch, on 4-5410 or Robert J. Picollo of his
staff on 4-5405.

cc: Nikki Tinsley
Appendix 2 - CCC’s Response to the Draft Report




                      57                  Report No. 9100117
January 8, 1999

Mr. Carl A. Jannetti
Divisional Inspector General for Audit
United States Environmental Protection Agency
Office of the Inspector General, Mid-Atlantic Division
1650 Arch Street
Philadelphia, PA 19103-2029

       Re: Draft audit report on the Center for Chesapeake Communities (CCC)

Dear Mr. Jannetti:

This letter is our response to chapters 4 and 5 of the Draft Report enclosed with your letter dated
November 20, 1998. We trust that the comments and points made herein will be reflected in the
final report when issued.

Before I make a number of substantive points about the Draft, I believe it is important to note
several contextual circumstances which materially affect some of the judgments made in the Draft
and which serve as background for the facts asserted as a result of the review on which the Draft
Report is based. These contextual observations were not specifically highlighted in the Draft but
are relevant to its interpretation.

Context

First, the Center for Chesapeake Communities (hereinafter the"Center" or "CCC") was in the
process of "starting up" during the period prior, during and after the review was carried out.
Every one of the "systems" and much of the documentation noted in the report were in the
process of being created. As will be mentioned later, these systems are now in place, the
documentation then being developed is now present. I believe it is unreasonable to believe that
any new organization would have all systems, policies, manuals, etc. fully developed in the first
eight months of its existence. The Report fails to note that the required systems were under
development with a payroll system, tax reporting and payment, accounting system and policy
manual all initiated prior to the review and now fully in place.

Second, the Report fails to note why the creation of certain systems were delayed and why the
Executive Director sought and received critical volunteer help from knowledgeable, skilled and
trusted persons.

                      Mail                                        Phone Numbers
    209 West Street, Suite 201, Annapolis, MD 21401        410-267-8595, Fax: 410-267-8597
During early December, 1997, less than one (1) month after receipt of the first funds, I began to
experience severe health problems, making it difficult to eat, and difficult to walk distances
greater than 100 yards. Preliminary tests, as well as a visit to my doctor over the Christmas
holiday indicated several possible problems. Immediately after the New Year (1998), I was in the
emergency room for tests as a result of persistent chest pains and very high blood pressure. At the
doctor's request, my activities were reduced, and a stress test ordered. The test, carried out over
a little more than a week later, indicated a severe blockage of the blood supply to my heart and
the necessity for a heart bypass operation as soon as it could be scheduled, in addition to an
angioplasty. These were scheduled for early February, 1998 on consecutive days. I was advised
not to resume activities for two to three weeks after the surgery, and then only gradually. Thus,
during the period from December through March, 1998 my attention to Center start-up was
secondary to these extraordinary health issues. During this period, in order to carry out the
required development, preparation and distribution of documents and systems, I requested and
received needed volunteer help where necessary and delayed as much as possible.

Third, the Draft Report fails to acknowledge that the Center Director provided complete access
to all Center files, checks and records. When the review was carried out, fewer than 50 checks
had been written, all receipts had been filed by month, and a payroll system fully implemented.
Copies of these records were provided. The Center's largest expenditure, fully consistent with the
authorized grants and funds then received, was my salary. Until May, 1998, I was the only
employee. It was easily verified then, and has since been reviewed and verified by EPA Grants
and Audit Staff, that the salary and benefits paid to me were both appropriate and consistent with
the budgets submitted to EPA. The percentages cited in the Draft Report concerning payments to
me are accurate but easily misleading since during all but the last 30 days of the entire period of
September, 1997 to April, 1998 the bulk of all the funds available were for my salary.

Substantive Response - Actions taken prior to receipt of Draft Report.

In the context of these observations, I have always regarded the review undertaken by the EPA
Inspector General's office with the utmost seriousness. While I was not aware of the issues
identified until the Center received the Report on November 20, 1998, it is important to note that
I had already initiated procedures to address the requirements of 40 CFR part 30. The review by
EPA Grants and Audit Staff carried out in early December, 1998 in response to the assertion in
chapter 5, indicated that Center documentation is fully satisfactory and responsive to those
requirements. We believe that CCC is in full compliance with the Financial Management and
Procurement systems in 40 CFR part 30.

The following management actions had already been taken prior to the receipt of the Draft
Report:
1.     Timesheets for all employees including time Distribution Systems by grant for all
       employees. Timesheets are also on file for Redman Johnston Associates, LTD ("Redman
       Johnston") for each month.
2.     A financial management system was in place with appropriate coding of each expenditure.
3.        Generally accepted accounting principles are now followed by the Center. We have
          current and complete disclosure of financial results for each activity within each grant.
4.        We have records that adequately identify source and application of funds for all federally
          sponsored activities. These records contain awards, authorizations, obligations,
          unobligated balance and authorized income.
5.        We have effectively segmented control and accounting for all funds, property and other
          assets.
6.        All assets are used for authorized purposes.
7.        We have written procedures for our work, our staff and our organization.
8.        We have on-site full accounting records and source documentation for our work.
9.        We have, where appropriate, fully implemented a computerized procedure for our grants
          and contract work.
10.       We have staff in place, all substantive work underway, reported our progress and
          maintained frequent communication on program issues with EPA staff.
11.       We have involved state and local governments in our work and responsibly carried out our
          agreed tasks.
12.       We have a library of applicable federal regulations on site.
13.       We have published a manual and distributed it to staff and our Board spelling out
          compliance requirements of applicable federal regulations and have created detailed
          employee policies and procedures.
14.       All these records were reviewed by EPA Grants and Audit Staff during a two day site visit
          in December, 1998.

Comments on Draft Chapter 4

Point 1

The incorporation of the Center was undertaken to address needs identified by a work group of
the Local Government Advisory Committee ("LGAC"). Mr. Redman offered to assist in this
process and to act as agent for the incorporation to assure it would be in place to provide funding
for services to local governments. Mr. Redman's involvement was never substantive in the
operation of the Center and as the draft points out, he resigned shortly after incorporation. Mr.
Redman's office was used as a point of contact because I was not immediately available and the
Corporation did not set up a point of contact until early September, 1998.

Point 2

The Draft asserts that a real or apparent conflict of interest exists because the Center awarded
two contracts to Redman Johnston. No such conflict existed. The Contractor was also the
Executive Director of LGAC and as such was responsible for preparing budgets, developing work
plans and securing LGAC approval of these proposals. Mr. Redman was also responsible for
their presentation before the Bay Program's Budget Steering Committee. These roles involve full
knowledge of the funds available and their purposes for future LGAC work. Interactions between
CCC, Bay Program Staff and the Contractor (representing LGAC) was therefore not only normal,
it was expected, as part of our responsibility by EPA.
The First Contract
EPA staff was fully aware that I intended to contract with Redman Johnston to provide technical
assistance and organizational start-up support to initiate the activities of the Center. I
regarded this work in many respects as an extension of the work already completed by Redman
Johnston to evaluate the need for and feasibility of a non-profit organization to provide technical
and financial assistance to local governments. The actual contract $9,864 was verbal. However,
real and substantive expectations were created, services were provided (EPA staff were fully
familiar with this work) and full payment was made with one-third (1/3) paid in April, May and
June of 1998. Note that at the time the Inspector General's review was carried out, these
payments were not complete. As pointed out in my interview with Inspector General staff, they
were delayed because of the grant processing and payment cycle of EPA and my attempt to
maintain the continuation of my own salary when the delays occurred.

I was not aware I needed a written agreement for these services since clear expectations
concerning the work were known by all concerned (myself, Mr. Redman and EPA staff). This
work was fully authorized by the start-up grant awarded to the Center.

The Draft Report asserts an application dated July 30, 1997 was submitted by CCC for services
which covered incorporation and other services to create the Center. No such application was
submitted. I have not seen such an application. I know these costs are not appropriate for a
federal application. The application submitted in my name in early August, 1997 (I was in North
Carolina and authorized Mr. Redman to sign my name) was the only application submitted, and as
mentioned above, it did seek assistance for only the following activities involving the formation of
the Center. These activities included delegation meetings with LGAC members, development of
information about the LGAC non-profit work group, identification of potential funding sources in
part to address LGAC concerns that such sources existed, and development of informational
materials on the new organization for LGAC members and Bay Program signatories.

This is the work that the first cooperative Agreement dated September 30, 1998 authorized. EPA
staff were fully aware of our agreement with Redman Johnston to provide these services and I
believe approved the agreement to secure them from Redman Johnston. We believe 40 CFR 30
parts 43 and 44 do not prohibit our verbal agreement to a contract in this amount since clear
expectations existed, services were performed based on these expectations, an invoice was
rendered and reviewed by CCC and EPA staff prior to payment and full payment made based on
the work completed.

The Second Contract
The Draft Report asserts that a second contract for $155,000 was a "done deal" based on the
review carried out by Inspector General Staff. I believe neither the facts or the Draft support such
a conclusion. The Center did use the Request for Qualification ("RFQ") process to select a
contractor. This process was identical to that conducted by the metropolitan Council of
Governments (COG) in previous years, including as recently as 1996. I consulted extensively
with COG staff about their process and obtained complete copies of the documentation used.
The CCC process was designed to copy that process. We used the RFQ process as COG did
and the same contractor list and evaluation procedures. EPA had found these procedures
acceptable in the past and I saw no reason to change them, particularly in light of my health issue
in January and February, 1998 when this process was being implemented. Redman Johnston was
not the assured awardee.

Eighteen firms were sent the RFQ. I reasonably believed all eighteen firms received the RFQ
since none were returned. Inspector General staff verified that at least six acknowledged receipt.
Even this number is sufficient to assure competition. Two firms responded to CCC - Redman
Johnston and the SoHo group. The SoHo group requested a meeting prior to their submission of
a response to the RFQ. After a short delay because of my heart surgery, the meeting was held in
my office in Annapolis on February 24, 1998. I outlined the evaluation procedure, including
additional points for a minority-owned business (which SoHo was) and encouraged them to
respond. At the time, they indicated they would. Up until the day the final submission was due, I
fully expected at least two qualifying bids and was prepared to set up a review committee,
consisting of a member from each of the signatory jurisdictions. Such a procedure was not used
because the SoHo group called 2 hours before the deadline and indicated, based on their review of
Redman Johnston's work, qualifications and experience, they did not believe they could be
competitive. The CCC received only one (1) qualified response; that was from Redman Johnston.
Their name was submitted to the LGAC Executive Committee, which approved the contract
award in early March, 1998.

At no time did I regard the award as a "done deal". Had additional qualifying responses been
received, they would have been fairly and objectively evaluated by parties other than myself.

It is noted in the Draft that the list of RFQ recipients was obtained from Redman Johnston. Mr.
Redman's response indicated why this occurred.

The Draft Report indicated Mr. Redman preferred an RFQ process. The report does not mention
the RFQ process was the one used by COG which is why the CCC used it. The draft report
mentions a draft budget titled Draft 2, dated September 11, 1997 concerning the budget being
developed for LGAC activities and CCC work. I believe it was entirely appropriate for Mr.
Redman to review this documentation in light of his role with LGAC and his responsibility to
present the budget to them and to the Budget Steering Committee as part of the process then
being carried out by the Bay Program.

The Draft notes the application for assistance was faxed from Redman Johnston's office on
December 16, 1997. I was in New Orleans at an EPA meeting and asked a Redman Johnston
staff member (without Mr. Redman's knowledge) to submit the application based on text I had
reviewed and approved since the staff member had a copy of the application form on disk and I
did not have such materials. After keying in the text I had approved on the form, he forwarded it
to EPA. During this period, late January and February, 1998, I was in the hospital recovering
from surgery. Work needed to be done during this period to meet EPA deadlines and I asked a
skilled and trusted person to volunteer and carry out these activities to assure the continuity of
work and funding.
The Draft asserts that the Contractor, Redman Johnston, had detailed knowledge of the RFQ
specifications and requirements, etc. The LGAC process and Bay Program procedures provide
that this knowledge be widely shared with LGAC members and the Bay Program staff. This does
not provide competitive advantage since the same information is provided to all potential bidders
as part of the RFQ process. Redman Johnston’s advantage is the excellent quality of their work
and their reputation as a firm. CCC procurement records clearly indicate Redman Johnston was
the only qualified bidder. The contract award amount was fixed by the RFQ. LGAC was
informed that another bidder had dropped out for the reasons mentioned earlier. Therefore, only
one bidder was recommended to LGAC. Our records are sufficient to show these were the facts.
EPA staff were fully aware of these facts. These facts were sufficient for a contract award and no
change was made to the cost of the contract since it was approved by the LGAC Executive
Committee.

Much is made in the Draft about written statements of conduct for employees awarding or
administering contracts. The Center now has such standards. We also now have more than one
employee. At the time the award was made, I believe it was competitively done. There was no
assurance Redman Johnston would prevail based on the Center's process, which was modeled
after a process conducted by an organization which does have such standards.

Chapter 5

Point 1

Earlier I indicated that CCC does have an adequate financial management system. This has been
verified by the review carried out by the EPA Staff in early December, 1998. I also indicated that
a number of actions initiated prior to the Inspector General review were not concluded until after
the Inspector General's review.

Point 2

The Draft asserts that the Executive Director disregarded the detailed budget when funds were
expended. This is not the case. Rather, close attention was paid to these budgets and EPA
requirements when these expenditures were made. The CCC did employ a Redman Johnston
employee on a consulting basis during late March and early April, 1998 because help was needed
to address critical grant and EPA requirements. The items cited in the Draft footnote are in error
and misleading. No funds were paid to anyone for the development of an application for a
Sustainable Development Challenge Grant. This application was submitted in August, 1997.

I did secure help to (1) develop a final draft of a training program required by our start-up grant,
(2) provide copy of the small water shed grant required by EPA Bay Program Budget Steering
Committee, (3) consult on a draft memo to the Governor of Maryland on the Summit required by
our grant, (4) consult on the configuration of office equipment for a new Center office, (5)
consult on the content of a draft brochure for the Center (again required by our grant), and (6)
respond to certain technical questions from EPA Grants and audit staff on our budgets for
ongoing and proposed work.

All of these activities are authorized by our grant from EPA. The individual involved had
knowledge and skills I believed were essential to our work and I had no other staff to draw on
and could not, in good conscience, continue to constantly ask for such enormous time
commitments for free.

Point 3

As indicated earlier in this response, the exact amounts cited in this chapter setting forth payments
to me are not disputed. Rather they are entirely consistent with my authorized salary for the
period cited and the health, life and retirement contributions are also consistent with the
authorized budget. The reimbursements are consistent with actual costs documented for this
same nine (9) month period. The $9,000 in vendor costs reflecting the equipment ordered and
now in use in our offices is fully consistent with our authorized budget for such costs as amended
in March, 1998.

Point 4

Board meetings were documented, EPA Staff was present. IG Staff had access to copies of the
agenda and other supporting materials in the files provided at the time of their visit. Minutes were
not available.

Point 5

The Executive Director did maintain a detailed personal calendar. Timesheets for employees were
not introduced until more than one employee was on staff. My time was, at the time of the
review, covered by only one grant from one source. No distribution by activity seemed necessary.
Copies of my calendar were not requested.

Point 6

The advance payment method is used and has been continued subsequent to the review by EPA
Staff in December 1998. Our documentation is responsive to the EPA's Assistance
Administration Manual.

Point 7

We fully believe our expenditures are supported based on the facts cited in our response and the
review carried out by EPA Staff in December, 1998.

Point 8

We believe the verbal contract with Redman Johnston was valid, consistent with the cooperative
agreement, and approved by EPA.

Point 9

The Consulting Agreement referred to in footnote 2 of the Draft was fully consistent with the
Cooperative Agreement. Note the actual activities addressed as identified in this response.

Point 10

Your Draft included 2 Exhibits, A & C. No Exhibit B was included.
Conclusion
Since the Center's incorporation, I have worked to build the independence, credibility and
reputation of a new non-profit to serve the interest of local governments in the Bay Watershed.
This organization was created to respond to real needs identified by these governments. EPA
Staff are well aware of these facts. However, some individuals in the Region hold strong views
concerning both the Federal Rules in clean water policy and any non-profit organization that seeks
to partner with local governments to assist them in addressing Chesapeake Bay protection and
restoration objectives. Their questions and suspicions led to the invitation which I supported for
the review by your office. We have consistently tried to be cooperative with the review. I regret
any shortcomings in our start-up which may have led to the assertions contained in the Draft. I
hope you will agree these were not inconsistent with the start-up of many new enterprises.

I deeply hope the facts provided by Mr. Redman and myself go far in addressing your concerns. It
would indeed be regrettable if the final report did not fully reflect these facts and on balance
seemed to reinforce the prejudice of a few and undermine the credibility of our organization
before it renders even the first full year of service. It is my hope the final report will fairly
represent all the facts and not create a cloud of suspicion from which we cannot emerge.

It is important to note that at all times the Center and its employees acted in good faith with the
intent to comply with relevant Federal regulations. No abuses occurred, and all funds received by
the Center have been appropriately accounted for. All actions taken by the Center were taken in a
manner which accomplished the stated objectives of the program without abusing procedures, and
perhaps most important, EPA, the Federal agency responsible for the program, was constantly
consulted by the Center's Executive Director to ensure that the Center was properly established,
that the start-up obligations were accomplished and that the resources available to the Center
were handled properly. If it is to be concluded that in some of these initial activities there may
have been some lack of swift or strict adherence to Federal regulations, it is clear that there was
no inappropriate activity and that any procedural or recordkeeping deficiencies have been
corrected. We hope the Inspector General's report will concur with these observations.

Sincerely,


Gary G. Allen
Executive Director
Appendix 3 - Redman/Johnston Associates Response to the Draft Report




                                67                   Report No. 9100117
December 22, 1998

Mr. Carl A. Jannetti
Divisional Inspector General for Audit
United States Environmental Protection Agency
Office of the Inspector General, Mid-Atlantic Division
1650 Arch Street
Philadelphia, Pennsylvania 19103-2029

        Re:      Draft audit report on the Center for Chesapeake Communities (CCC), Report
                 Number E6DEP8-03-0014

Dear Mr. Jannetti:

        Please consider this letter as the draft written comments to the draft audit report you
requested in your letter dated November 20, 1998. Please note that these comments are in
response, only to the two pages of the draft audit report received from your office with the letter
dated November 20, 1998. I will respond in a separate letter to the issues raised in Chapters 4
and 5 of your draft report, which were not provided with your November 20th transmittal. To the
extent there is a final audit report which varies the draft report you provided, I reserve the right to
make a further response.

        One of the pages submitted to me (unnumbered), titled "Contractor's Costs Unsupported"
suggests that RJA did not have an "adequate financial management system" because "our
personnel did not use time sheets or any mechanism to support actual hours charged to the
contract". As you know, RJA and the Metropolitan Washington Council of Governments
("COG") entered into a contract ("Contract") on April 28, 1997, which is the subject of your draft
report. RJA fully complied with the terms of the Contract.

Point #1

         As I indicated to your field investigation team during their visit at our offices, RJA has
been a contractor with the Metropolitan Washington Council of Governments for three years
prior to the subject contract. At no time during those contracts was our record keeping and
billing procedure questioned. Throughout the period of our relationship with COG, and in
conformance with the Contract between RJA and COG, Section 2.b., RJA requested each
payment on an invoice form, upon the completion of each task, or a portion thereof, describing
the work performed and the period of performance of the work being invoiced. RJA sent invoices
in strict compliance with the language of the Contract. The Contract does not mandate that RJA



416 Goldsborough street - Easton, Maryland 21601        (410) 822-9630           Fax (410) 820-5039
Page 2

keep time records as a condition for payment. None of these invoices were ever questioned by
COG or EPA administrative officials. Each invoice was prepared mindful of the need to complete
all work identified in the contract scope of services and to do so within budget. RJA completed
all tasks and assignments defined in our Contract work program on time and within the Budget
set forth under Section 2.a. of the Contract. That was what COG expected, and that is what RJA
accomplished. Time and materials billings were not contemplated.

Point #2

        Although the phrase "time and materials" is used in Section 2.a. of the Contract, a review
of the contractual language as a whole reveals that the Contract is not a typical "time and
materials" contract as defined by the Federal Acquisition Regulations, but is more characteristic of
a "fixed fee" contract. Specifically, the Contract did not specify a fixed hourly rate, which is
required for "time and materials" contracts under the Federal Acquisition Regulations. 48 C.F.R.
16.601(a) provides that "[a] time and materials contract provides for acquiring supplies or
services on the basis of (1) direct labor hours at specified hourly rates that include wages,
overhead, general administrative expenses, and profit and (2) materials at cost, including, if
appropriate, material handling costs as part of material costs.” Reading the contract as a whole,
including the 20 pages of the Contract which specifically define tasks, and the specific budgets
allocated to the tasks, the payment schedule is more characteristic of a "fixed fee" contract, in
which the contractor receives payment based on completion of each task, as opposed to a "time
and materials" contract in which the contractor is paid at specified hourly rates.

        The Federal Acquisition Regulations also provide that "[a] time-and-materials contract may
be used only when it is not possible at the time of placing the contract to estimate accurately the
extent or duration of the work or to anticipate the costs with any reasonable degree of certainty.”
48 C.F.R. 16.601 (b). In this case, RJA and COG were able to estimate both the extent and
duration of work. Section 3 of the Contract states that the "period of performance under this
Contract is from March 16, 1997 through March 15, 1998." The Contract set forth specific and
identifiable tasks to be performed in the one year time period, and assigned budgets for each task.

        Although Section 2.a. of the Contract indicates that the contractor shall be paid on a time
and materials basis an amount not to exceed $204,000, it further indicates (in the same sentence)
that payment shall be made in accordance with the scope of work and budget reflected in Contract
Attachments A and B (Scope of work and budget). These two attachments represent over 20
pages of the contract that define our responsibilities for completion of tasks and assign a budget
for each task. We viewed the Contract as a fixed price contract, and understood that we would
be paid the budgeted amount for the work performed. At no time has anyone provided any
indication that we did not complete all elements of the scope of services for which we were
engaged during the period March 1997 to March 1998, or that we exceeded the budget
established for the many tasks defined in the contract.


416 Goldsborough street - Easton, Maryland 21601      (410) 822-9630           Fax (410) 820-5039
Page 3

        The draft audit report indicates that it is your opinion that "a time and materials contract is
the least preferred contract type and should be used when no other type is suitable”..... since
"according to 48 CFR 16.601, a time a materials contract provides no positive profit incentive to
the contractor for cost control or labor efficiency and therefore, oversight of contractor
performance is required". I agree.

       Both RJA and COG considered the Contract a "fixed price" contract, or a lump sum
contract which is reflected in both the monthly invoicing under the terms of the Contract and the
manner in which our work was conducted. 48 C.F.R. 16.202-1 describes a "firm fixed price
contract as a contract which:

         ...provides for a price that is not subject to any adjustment on the basis of the contractor's
         cost experience in performing the contract. This contract type places upon the contractor
         the maximum risk and full responsibility for all costs and resulting profit or loss. It
         provides maximum incentive for the contractor to control costs and perform effectively
         and imposes a minimum administrative burden upon the contracting parties.

        As I indicated to your review team, in many cases my invoices reflecting staff time
committed to performance of services under this contract account for less than the actual time
require to complete various aspects of work. In most cases, I found that staff time to complete
many of the contract specific work assignments was greater than amounts budgeted. In those
cases, when preparing invoices for our work, I did not submit invoices for additional staff hours
devoted to these assignments because it was our belief that we were committed to complete the
assignments and provide the products defined in the scope of work for the prices defined in the
contract. We assumed that any additional time it might take to complete those elements was not
billable. RJA did not bill for any costs or time over the agreed upon amounts, and treated the
Contract as a fixed price contract.

        Given the fact that only 3 words in the entire body of the contract and attachments
references the fact that the contract was a "time and materials" contract and the fact that the
contract does not specify hourly rates, and fully 25 pages of the document characterize work to be
performed and budgets allocated to each work item, I have a great deal of trouble characterizing
the contract as simply a "time and materials" contract. Both parties treated the Contract as a
"fixed price" or lump sum contract, in which payment was made upon documentation of
completion of specific tasks as defined under the Contract. It is undisputed that RJA in fact
performed the tasks set forth in the Contract within the specified times. EPA administrative staff
who monitored my performance of Contract responsibilities during the period March, 1997 to
March 1998 have never indicated any failure on the part of my firm to complete Contract
assignments and do so within the price structure defined in the contract.




416 Goldsborough street - Easton, Maryland 21601         (410) 822-9630           Fax (410) 820-5039
Page 4

Point #3

        Your finding that all costs associated with this Contract are unsupportable is quite
surprising given the fact that I provided audit team members copies of products,
(reports/documents) reflecting completion of many of the tasks which were budgeted in the
Contract (see Contract attachments A and B). For example, the Contract provided for:

’        preparation and distribution of four quarterly newsletters at a budget of $12,250; and
’        preparation of a pollution prevention toolkit (book publication and brochure) at a budget
         of $25,000; and
’        Preparation of a literature synthesis regarding the costs of sprawl and related pamphlets at
         a budget of $5,000.

Each of these assignments was completed during the contract year and tangible work products in
the form of reports, publications, or copies of the newsletters were made available for your
review. It would therefore seem appropriate to credit these items as costs that are supportable in
Exhibit B (the second and only other page of the report I received). Quite frankly, it seems
unreasonable for you and your staff to indicate in your report that absolutely none of the costs
during the year are supportable in the face of clearly visible products.

Point #4

         Note #2 on Exhibit B of the draft report indicates that all costs associated with preparing
the feasibility study for creation of a non-profit organization should be disallowed. The language
in the note is confusing and may be a result of confusion on the part of the investigators. There is
a distinct difference between "preparing the feasibility report" and "establishment of the nonprofit
entity". Work done to prepare the feasibility report was authorized in attachment 2 to my
contract with COG. (See page 2-1 attachment 2 to the contract scope of work) In fact, this work
item was budgeted in the amount of $6,500. Unfortunately the level of effort required to explore
the feasibility of creating the Center, did not satisfy some LGAC members who expected to see a
detailed report. The need for the detailed report and additional related work performed regarding
start up for the Center was discussed with EPA staff and additional work was approved by EPA
as an extra. At that time it was understood that the estimated cost to complete the work would
be $10,000. Rather than process a contract amendment through the Metropolitan Washington
Council of Governments, EPA staff recommended that I receive compensation from the $45,000
initial grant to be made to the Center. I accepted that arrangement and performed the work
accordingly. Therefore it does not seem reasonable to disallow costs associated with preparation
of the feasibility study since I was contractually obligated to complete this task within the scope of
work. On the other hand, the action to establish the nonprofit entity was not within the scope of
work and our firm has made no request, nor do we intend to request reimbursement of any
expenses associated with the "establishment of the nonprofit entity."


416 Goldsborough street - Easton, Maryland 21601        (410) 822-9630          Fax (410) 820-5039
Page 5

Point #5

         In closing, please be advised that since April of 1998, we have adjusted our administrative
procedures as a result of your audit team's visit to our offices. Their visit provided me with the
first clear indication that our contract administrative procedures required us to maintain daily time
records of our work. Since that time, personnel at RJA have been required to keep time sheets
for all work related to LGAC assignments. These time sheets now accompany our monthly
invoices to the Center for Chesapeake Communities.

Sincerely,


Anthony D. Redman
Redman/Johnston Associates, Ltd.




416 Goldsborough street - Easton, Maryland 21601       (410) 822-9630           Fax (410) 820-5039
December 23, 1998

Mr. Carl A. Jannetti
Divisional Inspector General for Audit
United States Environmental Protection Agency
Office of the Inspector General, Mid-Atlantic Division
1650 Arch Street
Philadelphia, Pennsylvania 19103-2029

        Re:      Draft audit report on the Center for Chesapeake Communities (CCC), Report
                 Number E6DEP8-03-0014

Dear Mr. Jannetti,

         I have been provided with copies of Chapter 4 and 5 of the above draft audit report. This
letter is intended to address the matters set forth therein which relate to Redman/Johnston
Associates, Ltd.

        The first page of Chapter 4 in your report alleges that the Executive Director of the CCC
"acted favorably toward Redman/Johnston Associates by awarding it, for all intents and purposes,
two sole source contracts after Redman/Johnston Associates absorbed costs totaling $2,300 for
incorporating the CCC."

       This conclusion is incorrect. There is a current contract with the Center for Chesapeake
Communities (CCC) dated March 31, 1998, which was awarded to RJA after a bid process in
which RJA was not involved, except as bidder.

         It is correct that I spearheaded the incorporation of the CCC. I agreed to do that at no cost
to the EPA, whose representatives advised that absent incorporation, they could not provide an
initial grant to support the start-up activities of the Center. Please keep in mind that at that time
the Metropolitan Washington Council of Governments (COG) staff had indicated they would
withdraw future sponsorship of LGAC funding and that they supported the CCC assuming
responsibility for future grants that would support the ongoing activities of the Local Government
Advisory Committee (LGAC). The EPA representatives indicated that if a nonprofit corporation
was formed, they would continue to fund LGAC activities through the CCC. My actions to create
the non-profit were designed to protect LGAC access to financial resources to support



416 Goldsborough street - Easton, Maryland 21601        (410) 822-9630           Fax (410) 820-5039
Page 2

their ongoing activities. Since RJA's role as a contractor to the LGAC is subject to change each
year based on a competitive selection process, their was never any assurance that incorporation of
the Center would financially benefit RJA. In fact, RJA has sustained a substantial reduction in the
dollar volume of services we provide on behalf of the LGAC since the Center now receives a
portion of the LGAC's budget to provide many of these services.

        As you indicated in your report, I signed Mr. Allen's name on certain application
paperwork, and in so doing included my initials since I was signing requisite application forms on
his behalf. Your report should note that Mr. Allen expressly authorized and directed me to submit
the grant application in his name. My initials following his name were intended to make it
perfectly clear that I had affixed a signature on his behalf as applicant.

       You are correct that at the time CCC was incorporated, I was listed as a Director. Before
there were any Board of Directors meetings or any Board action, I resigned as a Director on
September 23, 1997. I never actually served as a Director, and was a Director in name only for
purposes of the initial incorporation.

        There is a comment in the draft audit report suggesting that it was somehow improper for
me to be personally aware of future grant availability. That was my job with LGAC - to prepare
budgets based upon anticipated grant funding. There is nothing improper about that process.
With respect to the comment in Chapter 4 that RJA benefitted from the grant ultimately made to
the CCC, it is accurate that there was an addendum to an existing contract which resulted in
additional work, and additional revenue ($9,894.00) to RJA, which was funded through a grant
which I assisted the Center in preparing.

        In Chapter 4/page 3 of the report you describe the actions taken to amend the cooperative
agreement dated March 2, 1998 which awarded funding in the amount of $314,000 to the Center
of which $155,000 was to fund the contract for services to the LGAC. You characterize this award
of $155,000 to my firm as "a done deal". In fact the report asserts "in our opinion, documentation
in EPA's, the CCC's and Redman/Johnston Associates' files indicated the award of this contract
was a done deal". While this is an interesting opinion, it is incorrect as far as I know. Although I
had served for several years as contractor to provide support services to the LGAC, I received a
request for qualifications and submitted a proposal to provide these services as part of what I
understood to be a competitive contractor selection process. Please note that I had foreknowledge
of the amount budgeted for LGAC activities for that year since I had prepared LGAC's budget
request several months before the selection process took place. As I indicated earlier, I have
prepared the LGAC's budget request on behalf of the Committee for the past five years as part of
my contractual obligations to provide administrative support services to the organization. Without
a budget they would be unable to function from year to year. Moreover, the budget request I
prepare on their behalf each year is reviewed and approved by the LGAC members.




416 Goldsborough street - Easton, Maryland 21601      (410) 822-9630           Fax (410) 820-5039
Page 3

         On page 4 in Chapter 4 you note that when you initially requested the list of firms that
were mailed the RFQ, the list was faxed from my offices to the Executive Director of the CCC who
in turn faxed it to you. I have never seen such a list. I can assure you it has never been in my
personal possession.

        In investigating this circumstance, I have learned that you requested this list from Mr.
Allen, who requested a former employee of mine (the same one that now works for the Center) to
obtain a copy on his behalf from the Metropolitan Washington Council of Governments.
Apparently, he obtained a copy for COG and forwarded it to the Center without my knowledge. I
recognize that he was an employee of my firm at that time, nevertheless, I repeat, I never had any
indication that such a list was ever in my offices and to this day have never seen such a list. In fact,
it appears that the only reason such a list was ever in my office at all was because you requested it
of the Center, and at Mr. Allen's request, my employee became a transmittal middle man, after the
contract was awarded, I should add.

        The second bullet located in Chapter 4 on page 5 of the report describes a proposed budget
titled "Draft 2" that was faxed from my office to the CCC on September 11, 1997. You note that
this was six months before the contract was awarded. The draft you saw was prepared at the
request of the Director of the Center to assure funding would be set aside for LGAC activities
during the coming year. As I have already indicated, preparing the LGAC's budget for the coming
year is part of my contract administrative obligation to the LGAC.

        Chapter 5/page 1/last paragraph of the report indicates the CCC "paid one employee of
Redman/Johnston Associates $1,500 for preparing proposals in order to apply for two other
grants". Redman/Johnston Associates provided some support in the preparation of the Sustainable
Development Challenge Grant application. This assistance was limited since our contract at that
time made no provision for compensation for such work. However, at no time was I aware of any
arrangement between the Center and the employee to be compensated in the amount of $1,500 for
preparing these proposals. Such action was never sanctioned by RJA, nor did RJA receive any
income for this work. This apparently was an arrangement between my about-to-be-former
employee and his prospective employer. It was not an arrangement with RJA.

         Please advise if additional comment is necessary.

                                                       Very truly yours,


                                                       Anthony D. Redman
                                                       Redman/Johnston Associates, Ltd.




416 Goldsborough street - Easton, Maryland 21601         (410) 822-9630           Fax (410) 820-5039
                          Appendix 4 - Distribution


Office of Inspector General (2410)

Regional Office

Regional Administrator (3RA00)
Director, Chesapeake Bay Program Office (3CB00)
Deputy Director, Chesapeake Bay Program Office (3CB00)
Office of Assistant Regional Administrator for Policy and Management (3PM00)
Audit Follow-up Coordinator (3PM70)
Office of Communication and Government Relations (3CG00)

Headquarters

Assistant Administrator for Administration and Resources Management (3101)
Assistant Administrator for Water (4101)
Comptroller (2731)
Director, Office of Grants and Debarment (3901R)
Director, Grants Administration Division (3903R)
Director, Office of Acquisition Management (3801R)
Director, Office of Regional Operations (1108)
Associate Administrator for Congressional and Intergovernmental
 Relations (1301)
Associate Administrator for Communications, Education, and Media
 Relations (1701)
Deputy Associate General Counsel, Finance and Operations Law Office (2377)
Agency Follow-up Official (2710)
Agency Follow-up Coordinator (2724)

External

Local Government Advisory Committee (LGAC)
Center for Chesapeake Communities
Redman/Johnston Associates
Landmark Legal Foundation
Metropolitan Washington Council of Governments (COG)




                                       76                     Report No. 9100117
